APPENDIX

TABLE OF CONTENTS

Appendix A:

Court of appeals opinion,
February 22, 2019.......................................... 1a

Appendix B:

District court opinion,
November 16, 2017 ...................................... 20a

Appendix C:

District court opinion,
March 30, 2017 ............................................. 44a

1a
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD DISTRICT
No. 18-1042
MARY BARBATO
v.
GREYSTONE ALLIANCE, LLC;
TURNING POINT CAPITAL INC;
CROWN ASSET MANAGEMENT LLC
Crown Asset Management LLC, Appellant
On Appeal from the United States District Court for the
Middle District of Pennsylvania
(M.D. Pa. Civil Action No. 3-13-cv-02748)
Honorable Malachy E. Mannion, U.S. District Judge
Argued: September 6, 2018
Before: HARDIMAN, KRAUSE, and BIBAS,
Circuit Judges
(Opinion Filed: February 22, 2019)

2a
Anthony J. Gingo
Michael J. Palumbo
Gingo Palumbo Law Group
4700 Rockside Road
Suite 440
Independence, OH 44131
Matthew R. Rosenkoff [ARGUED]
Taylor English Duma
1600 Parkwood Circle
Suite 200
Atlanta, GA 30339
Counsel for Defendant-Appellant Crown
Asset Management LLC
Daniel A. Edelman [ARGUED]
Edelman Combs Latturner & Goodwin
20 South Clark Street
Suite 1500
Chicago, IL 60603
Brett M. Freeman
Carlo Sabatini
Sabatini Law Firm
216 North Blakely Street
Dunmore, PA 18512
Counsel for Plaintiff-Appellee Mary Barbato

3a

OPINION OF THE COURT
KRAUSE, Circuit Judge.
The Fair Debt Collection Practices Act (“FDCPA”)
protects consumers from abusive, deceptive, or otherwise
unfair debt collection practices. 15 U.S.C. § 1692(a). It
applies to “debt collectors,” defined alternatively as those
engaged “in any business the principal purpose of which
is the collection of any debts” and those “who regularly
collect[]” debts “owed or due another.” Id. § 1692a(6).
This appeal concerns only the first definition and requires
us to determine whether an entity that acquires debt for
the “purpose of . . . collection” but outsources the actual
collection activity qualifies as a “debt collector.” The District Court held that it does, and we agree: an entity that
otherwise meets the “principal purpose” definition cannot
avoid the dictates of the FDCPA merely by hiring a third
party to do its collecting. We therefore will affirm.
I.

BACKGROUND
A. Factual Background

Appellant Crown Asset Management (“Crown”) is a
purchaser of charged-off receivables, that is, accounts on
which a consumer has stopped paying the debt owed.
When Crown purchases an account, it determines if the
debtor has filed for bankruptcy or is deceased. If neither
is the case, Crown does not collect on the account itself;
rather, it refers the charged-off receivable to a thirdparty servicer for collection or it hires a debt collection
law firm to file a collection lawsuit on its behalf. Although
Crown does not contact consumers directly, it principally

4a
derives revenue from liquidating the consumer debt it has
acquired.
In this case, Appellee Mary Barbato obtained a consumer credit card from GE Electric Capital Corporation
and GE Money Bank (collectively “GE”) in 2007. She
made her last payment on the account in November 2010,
leaving an outstanding balance.
GE subsequently
charged off that balance and, after a number of sales and
assignments, Crown purchased Barbato’s debt. Pursuant
to its standing service agreement with collection agency
Turning Point Capital, Inc. (“Turning Point”), Crown
then referred that debt to Turning Point for collection.
Crown’s service agreement with Turning Point explained that Crown was seeking “to procure certain collection services” from Turning Point, and Turning Point
was agreeing to “undertake collection on each Account
placed” with it by Crown. App. 376. In addition, the
agreement said that Crown had the “sole and absolute discretion,” App. 378, as to which accounts it would forward,
that Crown’s obligation to pay Turning Point was contingent upon Turning Point’s success, and that Crown could
establish settlement guidelines from which Turning Point
would have to obtain permission in order to deviate.
Pursuant to this agreement, Turning Point sent Barbato a collection letter in February 2013, identifying itself
as a “National Debt Collection Agency” and Crown as its
client. Turning Point also called Barbato and left her two
voicemail messages. For its part, Crown did not have any
direct communication with Barbato regarding her account, nor did it review or approve the letter sent to her
by Turning Point. When Barbato filed for bankruptcy,
however, Crown recalled Barbato’s account from Turning
Point and subsequently closed it.

5a
B. PROCEDURAL BACKGROUND

Several months later, after Turning Point was absorbed by Greystone Alliance, LLC (“Greystone”), Barbato filed a state court complaint against Greystone, alleging that it had violated the FDCPA. And after Greystone removed the action to federal court, Barbato filed
an amended complaint in which she added Turning Point
and Crown as defendants and alleged that each was a
“debt collector” as defined by the FDCPA. 1 Turning
Point was served but never answered. Barbato eventually
dismissed both Turning Point and Greystone from the action, leaving only Crown as a defendant.
Barbato and Crown subsequently filed cross-motions
for summary judgment on, among other issues, the question whether Crown was a debt collector. Barbato did not
argue that Crown satisfied the “regularly collects” definition, i.e., that it “regularly collect[ed]” debts “owed or due
another.” 15 U.S.C. § 1692a(6). Rather, she argued that
Crown was a “debt collector” because: (1) it purchased
debts when they were in default, which, under then-controlling precedent, was a prerequisite to being considered
a “debt collector” as opposed to a “creditor” 2—statuses
we had deemed mutually exclusive under § 1692a(6), see
F.T.C. v. Check Inv’rs, Inc., 502 F.3d 159, 171 (3d Cir.
Although of limited relevance for this appeal, the specific conduct
that Barbato alleged violated the FDCPA was (1) that Turning Point
left her voicemail messages without disclosing that the calls were
from a debt collector, as required under 15 U.S.C. § 1692e(11), and
(2) that Turning Point’s letter neglected to inform her how to properly
exercise her validation rights, as required under 15 U.S.C. § 1692g.
Barbato purported to bring this latter claim on behalf of a putative
class of Pennsylvania residents.
1

2
The statute defines “creditor” as “any person who offers or extends credit creating a debt or to whom a debt is owed.” 15 U.S.C.
§ 1692a(4).

6a
2007)—and (2) it satisfied the statute’s “principal purpose” definition because the principal purpose of its business was the collection of those defaulted debts, even if it
hired third-party debt collectors to do the collecting. 15
U.S.C. § 1692a(6); App. 209-10 (citing Pollice v. Nat’l Tax
Funding, L.P., 225 F.3d 379, 403-04 (3d Cir. 2000)).
Crown countered that, regardless of the default status of
the debt, Barbato could not prove it fit the “principal purpose” definition because it took no collection action towards her and its principal purpose was not the collection
of debt but, rather, its acquisition.
Siding with Barbato on these issues, the District Court
held that Crown was “acting as [a] ‘debt collector’” because: (1) it acquired debts like Barbato’s when they were
in default and (2) the summary judgment record supported that Crown’s “principal purpose” was the “collection of ‘any debts.’” Barbato v. Greystone All., LLC, No.
3:13-CV-2748, 2017 WL 1193731, at *10 (M.D. Pa. Mar. 30,
2017). As to the second ground, the Court found little difference between collecting on charged-off receivables and
referring charged-off receivables to third-party independent servicers for collection. Instead, given that
Crown purchased debt, that ninety to ninety-five percent
of that debt came from consumers, and that Crown referred all of that debt out for collection, the District Court
concluded that “Crown’s principal purpose is to acquire
accounts in ‘default’ for the purpose of collection.” Id.
The District Court nevertheless denied Barbato’s motion
for summary judgment, holding that she had not established that Crown was vicariously liable for Turning
Point’s conduct because (1) in the District Court’s view,
vicarious liability could be imputed to Crown in these circumstances only if the agent too was a “debt collector,”
and (2) the evidence in the record was insufficient to hold
that Turning Point was a debt collector under the

7a
FDCPA. The Court granted the parties leave to file renewed motions for summary judgment to address Turning Point’s status as a debt collector.
While these proceedings continued in the District
Court, however, the Supreme Court issued a decision that
prompted Crown to seek reconsideration of the District
Court’s ruling that it was a “debt collector.” In Henson v.
Santander, Consumer USA Inc., in interpreting the “regularly collects” definition and deciding whether the entity
there “regularly collect[ed] . . . debts owed or due another,” 15 U.S.C. § 1692a(6), the Supreme Court held that
it was irrelevant whether the debt acquired and sought to
be collected was in default; instead, it held “[a]ll that matters is whether the target of the lawsuit regularly seeks
to collect debts for its own account or does so for ‘another,’” 137 S. Ct. 1718, 1721, 1724 (2017). Construing that
language to apply to § 1692a(6) generally, Crown urged
that it could no longer be considered a debt collector, even
under the “principal purpose” definition, because it too
was collecting debts on its own behalf and not for another.
The District Court disagreed, holding that Henson pertained only to the “regularly collects” definition of “debt
collector” and did not affect its holding that Crown was a
debt collector under the “principal purpose” definition.
See Barbato v. Greystone All., LLC, No. CV 3:13-2748,
2017 WL 5496047, at *1, *9-*10 (M.D. Pa. Nov. 16, 2017).
Nevertheless, the District Court certified its decision
for interlocutory appeal and presented a controlling question of law to this Court: “whether Henson requires a finding that Crown is not a debt collector in this case when it
was a third-party buyer of the debt, and the debt was in
default at the time it purchased it.” App. 34. Crown then
filed a petition for permission to file the interlocutory appeal and to appeal the District Court’s denial of its motion
for reconsideration, which we granted.

8a
II. JURISDICTION AND APPLICABLE STANDARDS

The District Court had jurisdiction under 28 U.S.C.
§ 1331, and we have jurisdiction over this interlocutory
appeal under 28 U.S.C. § 1292(b). When reviewing an interlocutory appeal under 28 U.S.C. § 1292(b), we exercise
plenary review over the question certified. Florence v.
Bd. of Chosen Freeholders of Cty. of Burlington, 621 F.3d
296, 301 (3d Cir. 2010). The scope of our review, however,
is not limited to the question set forth in the certification
motion but, rather, includes any issue fairly included
within the certified order. See Yamaha Motor Corp.,
U.S.A. v. Calhoun, 516 U.S. 199, 205 (1996) (“As the text
of § 1292(b) indicates, appellate jurisdiction applies to the
order certified to the court of appeals, and is not tied to
the particular question formulated by the district court.”).
“We review a denial of a motion for reconsideration for
abuse of discretion, but we review the District Court’s underlying legal determinations”—its denial of summary
judgment to Crown in this case—“de novo and factual determinations for clear error.” Howard Hess Dental Labs.
Inc. v. Dentsply Int’l, Inc., 602 F.3d 237, 246 (3d Cir.
2010). Summary judgment is appropriate only where
there is no genuine issue as to any material fact. Fed. R.
Civ. P. 56(c).
III. DISCUSSION

On appeal, Crown contends that it does not qualify as
a “debt collector” under the “principal purpose” definition
for three reasons: First, the Supreme Court’s decision in
Henson undermined our prior precedent that would render it a debt collector. Second, its principal purpose is the
acquisition—not the collection—of debt, and a faithful interpretation of the statute requires that we distinguish
between the two. And third, the legislative history

9a
demonstrates that Congress intended to regulate the proverbial “repo man,” not a “passive debt owner” like
Crown. Appellant Br. 32. We begin with a brief overview
of the FDCPA and, with that context for Crown’s arguments, address—and reject—each in turn.
A. The FDCPA

Congress enacted the FDCPA in 1977 “to eliminate
abusive debt collection practices by debt collectors” and
“to insure that those debt collectors who refrain from using abusive debt collection practices are not competitively
disadvantaged.” 15 U.S.C. § 1692(e). It provides a private right of action against debt collectors who violate its
provisions. 15 U.S.C. § 1692k; see also Brown v. Card
Serv. Ctr., 464 F.3d 450, 453 (3d Cir. 2006). “As remedial
legislation, the FDCPA must be broadly construed in order to give full effect to these purposes.” Caprio v.
Healthcare Revenue Recovery Grp., LLC, 709 F.3d 142,
148 (3d Cir. 2013).
“To prevail on an FDCPA claim, a plaintiff must prove
that (1) she is a consumer, (2) the defendant is a debt collector, (3) the defendant’s challenged practice involves an
attempt to collect a ‘debt’ as the [FDCPA] defines it, and
(4) the defendant has violated a provision of the FDCPA
in attempting to collect the debt.” St. Pierre v. RetrievalMasters Creditors Bureau, Inc., 898 F.3d 351, 358 (3d Cir.
2018) (quoting Douglass v. Convergent Outsourcing, 765
F.3d 299, 303 (3d Cir. 2014)). The only element at issue in
this case is the second—whether Crown qualifies as a
“debt collector.”
As noted, the statute defines “debt collector” as any
person (1) “who uses any instrumentality of interstate
commerce or the mails in any business the principal purpose of which is the collection of any debts” (the “principal

10a
purpose” definition), or (2) “who regularly collects or attempts to collect, directly or indirectly, debts owed or due
or asserted to be owed or due another” (the “regularly collects” definition). 3 15 U.S.C. § 1692a(6). The statute thus
provides two separate paths to establishing an entity’s
status as a “debt collector.” See Henson, 137 S. Ct. at
1721.
As we recently had occasion to remark, the debt collection industry has changed since Congress enacted the
FDCPA in 1977, and the simple creditor-debt collector
duo has been complicated by the advent and growth of
debt buying. See Tepper v. Amos Fin., LLC, 898 F.3d 364,
366 (3d Cir. 2018). With the proliferation of debt buying
have come questions about the boundaries of the statute’s
definitions.
In Henson v. Santander, the Supreme Court clarified
the “regularly collects” definition. There, Santander
Bank purchased loans once they were already in default
and sought to collect on them. 137 S. Ct. at 1720. Focusing on the plain language of the statutory definition at issue, the Court held that a third-party buyer of debt that
seeks to collect debt owed to it does not fit the second definition because it does not “regularly seek to collect debts

The statute also provides two other definitions of “debt collector,”
neither of which is relevant here: “any creditor who, in the process of
collecting his own debts, uses any name other than his own which
would indicate that a third person is collecting or attempting to collect
such debts” and “any person who uses any instrumentality of interstate commerce or the mails in any business the principal purpose of
which is the enforcement of security interests.” 15 U.S.C. § 1692a(6).
Excluded from the definition’s reach are, among others, a creditor’s
officers and employees who collect debts for the creditor, an entity
collecting a debt it originated, and an entity collecting a debt it obtained that was not in default at the time of purchase. Id.
§§ 1692a(6)(A), (F).
3

11a
‘owed . . . another.’” Id. at 1721. It rejected the petitioners’ arguments that either the origin of the debt or the
default status of the debt had any bearing on that analysis.
As to the debt’s origin, it reasoned that the statutory language did not suggest that “whether the owner originated
the debt or came by it only through a later purchase” was
relevant. Id. The Court similarly saw no basis in the text
for concluding that an entity that obtains debts after default automatically qualifies as a “debt collector” under
the definition. See id. at 1724. “All that matters,” the
Court concluded, “is whether the target of the lawsuit regularly seeks to collect debts for its own account or does so
for ‘another.’” Id. at 1721. Relevant for our purposes, the
Court explicitly declined to address whether such debt
buyers could nevertheless qualify as debt collectors under
the “principal purpose” definition. Id.
B. Henson and Third Circuit Precedent

Crown’s primary argument on appeal is that Henson
abrogated our prior precedent such that it no longer qualifies as a “debt collector” under the statute. Crown contends this is so for two reasons: first, because Henson renders it a creditor, not a debt collector, and the two statuses
are mutually exclusive; and second, because Henson rejected the so-called “default” test on which we relied,
thereby undermining “the very foundation” of our prior
caselaw. Appellant Br. 30. Crown overstates the effect of
Henson.
We need not dwell on Crown’s first argument because
our recent decision in Tepper v. Amos forecloses it. In
Tepper, the defendant was a company whose “sole business [wa]s purchasing debts entered into by third parties
and attempting to collect them.” 898 F.3d at 369. The defendant claimed that because it met the statutory definition of creditor—it was trying to collect debts it owned

12a
and was thus an entity “to whom [the] debt is owed”—it
could not also be a debt collector. Id. at 371 (quoting 15
U.S.C. § 1692a(4)). Like Crown, the defendant based this
argument on Third Circuit precedent that characterized
the two statuses as “mutually exclusive.” Id. (citing
Check Inv’rs, 502 F.3d at 173); see also Pollice, 225 F.3d
at 403. Until Henson, as we explained, we relied on the
“default” test to determine whether an entity was a creditor or a debt collector: either the entity obtained the debt
before default and was a creditor or it acquired the debt
afterwards and was a debt collector. Tepper, 898 F.3d at
366-67. Given the binary nature of default status, an entity could be only one or the other. But, we observed,
Henson rejected the “default” test, id. at 367, and with it,
the basis for treating the terms “debt collector” and
“creditor” as mutually exclusive. Following the Supreme
Court’s direction to hew more closely to the statutory definitions, we concluded that “an entity that satisfies both
[definitions] is within the Act’s reach.” Id. at 371. The
same is true here.
As to Crown’s second argument about Henson’s overall effect on our caselaw, it simply proves too much. While
it is no doubt true that Henson abrogated the default test
on which we relied to distinguish between creditors and
debt collectors and that it clarified the scope of the “regularly collects” definition of debt collector, Henson did not
address the other prong of § 1692a(6)—the wholly separate “principal purpose” definition. To the contrary, the
Court conducted a close textual analysis of the “regularly
collects” definition, deriving from that portion of the statute—which requires the entity to “collect” debt “owed or
due another”—that “[a]ll that matters is whether the target of the lawsuit regularly seeks to collect debts for its
own account or does so for ‘another.’” 137 S. Ct. at 1721.

13a
That requirement, however, does not appear in the “principal purpose” definition, and the Supreme Court went
out of its way in Henson to say that it was not opining on
whether debt buyers could also qualify as debt collectors
under that prong of § 1692a(6). See id.
But we have previously opined on this question—and
in similar circumstances. In Pollice v. National Tax
Funding, L.P., a debt buyer, National Tax Funding L.P.
(“NTF”), purchased delinquent municipal tax and utility
claims from the government. 225 F.3d at 385. Like
Crown, NTF had no direct contact with debtors; rather, it
outsourced all of its collection activities to others. Id. at
386. We concluded that NTF was a debt collector both
because it purchased debt in default—a fact Henson has
since rendered irrelevant—and also because “there [was]
no question that the ‘principal purpose’ of NTF’s business
is the ‘collection of any debts,’ namely, defaulted obligations which it purchases from municipalities.” Id. at 404.
The fact that someone else did the actual collecting did not
deter us from concluding that NTF was a “debt collector”
given that “NTF exist[ed] solely for the purpose of holding claims for delinquent taxes and municipal obligations.” Id. at 404 n.27 (emphasis added). True, Pollice
predated Henson, but for the reasons we explain below,
we continue to find its logic persuasive.
C. Statutory Interpretation

To determine whether Crown is a “debt collector” under the “principal purpose” definition, we look first to the
plain meaning of the statutory text. See S.H. ex rel. Durrell v. Lower Merion Sch. Dist., 729 F.3d 248, 257 (3d Cir.
2013). The text states that “any person who uses any instrumentality of interstate commerce or the mails in any
business the principal purpose of which is the collection of

14a
any debts” is a “debt collector.” 15 U.S.C. § 1692a(6). Focusing on the word “collection,” which it defines as “the
act or process of collecting,” Crown argues that the “principal purpose” definition applies only to those that engage
in “overt acts of collection” by interacting with consumers—not entities like Crown that purchase debt and outsource the collection. Appellant Br. 25, 31, 33.
As much as Crown might wish that it were otherwise,
nothing suggests that the definition is so limited. An entity qualifies under the definition if the “principal purpose” of its “business” is the “collection of any debts.”
“Principal” is defined as “most important, consequential,
or influential,” Principal, Webster’s Third New International Dictionary 1802 (1976) (“Webster’s Third”), and
“purpose” is defined as “something that one sets before
himself as an object to be attained: an end or aim” and “an
object, effect, or result aimed at, intended, or attained,”
id. at 1847. Thus, an entity that has the “collection of any
debts” as its “most important” “aim” is a debt collector
under this definition. While it is true that “collection” can
be defined as “the act or process of collecting,” it can also
be defined as “that which is collected.” Collection, Random House Dictionary of the English Language 290
(1973). So defined, the focus shifts from the act of collecting to what is collected, namely, the acquired debts. As
long as a business’s raison d’être is obtaining payment on
the debts that it acquires, it is a debt collector. Who actually obtains the payment or how they do so is of no moment.
The statutory context of the “principal purpose” definition casts further doubt on Crown’s argument that Congress meant to limit it to only those entities that actively
collect from consumers. See Allen ex rel. Martin v.
LaSalle Bank, N.A., 629 F.3d 364, 367 (3d Cir. 2011) (“If

15a
the plain language fails to express Congress’ intent unequivocally . . . we will examine the surrounding words
and provisions in their context.”) (citing Tavarez v.
Klingensmith, 372 F.3d 188, 190 (3d Cir. 2004)). In contrast to the “regularly collects” definition, where Congress explicitly used the verb “to collect” in describing the
actions of those it intended the definition to cover, in the
“principal purpose” definition, Congress used the noun
“collection” and did not specify who must do the collecting
or to whom the debt must be owed. 4 15 U.S.C. § 1692a(6);
see also Tepper, 898 F.3d at 370. Thus, by its terms, the
“principal purpose” definition sweeps more broadly than
the “regularly collects” definition, and we must presume
that the “legislature says . . . what it means and means
. . . what it says.” Henson, 137 S. Ct. at 1725 (quoting
Dodd v. United States, 545 U.S. 353, 357 (2005)).
In a plain language argument of its own, Crown retorts that to find that it qualifies under the “principal purpose” definition even though it outsources its collection
activities would be to read the word “indirectly” into the
statute where it does not appear. This is especially problematic, Crown contends, because the “regularly collects”
definition does specify that an entity can collect “directly
or indirectly,” while Congress omitted this qualifier from
the “principal purpose” definition.
We are unpersuaded. Again, the fact that the “regularly collects” definition employs a verb and the “principal
purpose” definition employs a noun is critical. In the “regularly collects” definition, the “directly or indirectly”
qualification is necessary because one could reasonably
4
At both oral argument and in its supplemental briefing, Crown argued that the word “collection” is a verb. It is not. It is a noun. See
Collection, Webster’s Third at 444 (denoting with the abbreviation
“n” that the word being defined is a noun).

16a
interpret “collect” to refer to only direct efforts to collect—it is, after all, “a verb that requires action.” Appellant Reply Br. 15 (citation omitted).
The “principal purpose” definition, however, needs no
such qualification. “Collection” by its very definition may
be indirect, and that is the type of collection in which
Crown engages: it buys consumer debt and hires debt collectors to collect on it. 5 The existence of a middleman does
not change the essential nature—the “principal purpose”—of Crown’s business. As Barbato points out,
Crown could buy debt for the charitable purpose of forgiving it, or it could buy debt for the purpose of reselling
it to unrelated parties at a profit. In both of those cases,
the entity’s “principal purpose” would not be collection.
But Crown does neither of those things. Indeed, the record reflects that Crown’s only business is the purchasing
of debts for the purpose of collecting on those debts, and,
as Crown candidly acknowledged at oral argument, without the collection of those debts, Crown would cease to exist. In short, Crown falls squarely within § 1692a(6)’s
“principal purpose” definition.

Although not addressed by the District Court or the focus of the
parties’ arguments on appeal, Barbato has suggested that Crown itself collects debt because it is the named plaintiff in many collection
lawsuits. Because Crown’s litigation efforts did not give rise to this
appeal and we conclude that Crown otherwise satisfies the “principal
purpose” definition, we need not address this argument. We note,
however, that Crown’s answer to it—that its litigation efforts are irrelevant because its counsel, not Crown itself, does the collecting by,
for example, drafting the pleadings—is in tension with our precedent,
e.g., Pollice, 225 F.3d at 404-05 (recognizing that a debt collector may
be held vicariously liable for the conduct of its attorneys), and
squarely refuted by our holding today.
5

17a
D. Crown’s Purpose and Legislative History Argument

Finally, Crown argues that the legislative history of
the FDCPA demonstrates that Congress did not intend
for the statutory definition of “debt collector” to apply to
a “passive debt owner” like itself but only to a repo man
who was personally hounding debtors to hand over the
money they owe. Appellant Br. 32. This argument is
flawed in two respects.
First, it proves too much. There is no doubt that
“[d]isruptive dinnertime calls, downright deceit, and more
besides drew Congress’s eye to the debt collection industry.” Henson, 137 S. Ct. at 1720. But even if the purpose
of the statute was to reach repo men, that purpose is furthered by recognizing Crown as a debt collector under
§ 1692a(6). Unlike a traditional creditor, such as a bank
or a retail outlet that has its own incentive to cultivate
good will among its customers and for which debt collection is one of perhaps many parts of its business, an independent debt collector like Crown has only one need for
consumers: for them to pay their debts. As market-based
incentives go, that makes it far more like a repo man than
a creditor and gives it every incentive to hire the most effective repo man to boot.
Second, while the Supreme Court acknowledged in
Henson that “[e]veryone agrees that the term embraces
the repo man,” id., the language on which Congress settled sweeps more broadly to include “any business the
principal purpose of which is the collection of any debts,”
15 U.S.C. § 1692a(6) (emphasis added), without regard to
whether that entity delegates its collecting activities. The
statute is clear, and Crown’s argument fails for this reason as well: “[R]ecourse to legislative history or underlying legislative intent is unnecessary when a statute’s text
is clear and does not lead to an absurd result.” In re
Phila. Newspapers, LLC, 599 F.3d 298, 317 (3d Cir. 2010)

18a
(quoting Hay Grp., Inc. v. E.B.S. Acquisition Corp., 360
F.3d 404, 406 (3d Cir. 2004)).
E. Issues for Remand

Of course, our holding that Crown is a debt collector
does not answer the ultimate question of liability, which
turns here on principles of vicarious liability. As the District Court recognized, “when Congress creates a tort action, it legislates against a legal background of ordinary
tort-related vicarious liability rules,” Barbato, 2017 WL
1193731, at *12 (quoting Meyer v. Holley, 537 U.S. 280,
285 (2003)), and we have relied on traditional agency principles in holding parties vicariously liable under the
FDCPA, see Pollice, 225 F.3d at 404-05, as have other
Courts of Appeals in the context of analogous remedial
statutes, see, e.g., Jones v. Federated Fin. Reserve Corp.,
144 F.3d 961, 965 (6th Cir. 1998) (applying agency principles to determine vicarious liability under the Fair Credit
Reporting Act).
As Crown’s ultimate liability for the acts of Turning
Point was not the question certified in this interlocutory
appeal nor the focus of the parties’ briefing, we will leave
that issue for the District Court’s consideration in the first
instance. By way of guidance on remand, however, we offer two brief observations. First, to the extent Crown argues that the District Court was obligated to find that
Crown exerted actual control over Turning Point in order
to be held vicariously liable, Crown misunderstands the
tenets of agency law and our precedent. See Meyer, 537
U.S. at 285-86 (explaining that the principal-agent relationship requires that the principal either control “or
[have] the right to direct or control” the agent) (emphasis
added); see also Janetos v. Fulton Friedman & Gullace,
LLP, 825 F.3d 317, 326 (7th Cir. 2016) (interpreting Pollice to mean that vicarious liability need not be based “on

19a
a showing of actual control over the specific activity alleged to violate the [FDCPA]”).
Second, in inviting further development of the record
on Turning Point’s own status as a “debt collector,” the
District Court assumed that Crown could not be held vicariously liable for the acts of an agent under the FDCPA
unless the agent qualified as a “debt collector” in its own
right. Barbato, 2017 WL 1193731, at *13. But our case
law imposes no such requirement; to the contrary, we
have focused on whether the principal qualifies as a debt
collector because “an entity which itself meets the definition of ‘debt collector’ may be held vicariously liable for
unlawful collection activities carried out by another on its
behalf.” Pollice, 225 F.3d at 404. And as we explained in
Pollice, and we reinforce today, this is “a fair result because an entity that is itself a ‘debt collector’—and hence
subject to the FDCPA—should bear the burden of monitoring the activities of those it enlists to collect debts on
its behalf.” Id. at 405.
IV.

CONCLUSION

For the foregoing reasons, we will affirm the District
Court’s order denying reconsideration of its summary
judgment decision and will remand for further proceedings consistent with this opinion.

20a
APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
MARY BARBATO,
Plaintiff,
v.
GREYSTONE ALLIANCE, LLC, et al.,
Defendant.
Civil Action No. 3:13-2748
(Judge Mannion)
MEMORANDUM
Before the court is remaining defendant Crown Asset
Management, LLC’s (“Crown”) motion for reconsideration, (Doc. 107), of Judge Nealon’s decision, (Doc. 100),
finding that Crown is a “debt collector” as defined in
§1692a(6) of the Fair Debt Collection Practices Act, 15
U.S.C. §1692, et seq. (“FDCPA”), and denying its motion
for summary judgment. Crown’s motion is based on the
recent decision by the Supreme Court in Henson v. Santander USA, Inc., — U.S.—, 137 S. Ct. 1718 (June 12,

21a
2017), issued after Judge Nealon’s decision. After a thorough review of the record, the court will DENY defendant
Crown’s motion for reconsideration. 1
I.

BACKGROUND

This court will not repeat the full procedural and factual background of this case since they are detailed extensively in the March 30, 2017 Memorandum. (Doc. 100, pp.
1-14). See also 2017 WL 1193731 (M.D. Pa. March 30,
2017). Rather, the court incorporates by reference the
background as stated in the March 30, 2017 Memorandum.
Suffice it to say that on June 23, 2017, Crown filed a
motion for reconsideration of the court’s March 30, 2017
Order denying the cross-summary judgment motions of
plaintiff and Crown. (Doc. 107). Crown simultaneously
filed its brief in support. (Doc. 108). After being granted
an extension of time, plaintiff filed a motion under seal on
July 12, 2017, (Doc. 110), seeking the court’s permission
to file, either under seal or not, her attached brief in opposition to Crown’s motion for reconsideration, (Doc. 1102), and exhibit, namely, two excerpts (three sentences in
total) from Crown’s Consolidated Financial Statement for
years 2012-2014 which Crown provided to plaintiff in discovery under a protective order.
On August 4, 2017, Crown filed its reply brief in support of its reconsideration motion. (Doc. 113). Also, on
August 4, 2017, Crown filed a brief in opposition to plaintiff’s Doc. 110 motion and requests the court to strike the
protected information from plaintiff’s brief under Fed. R.
Civ. P. 12(f). (Doc. 114). On August 18, 2017, plaintiff filed
1
On July 20, 2017, this case was reassigned to the undersigned
judge from Judge Nealon who issued the March 30, 2017 Memorandum. (Doc. 100).

22a
a motion to file her reply brief in support of her (Doc. 110)
motion, either under seal or not, (Doc. 116), as well as a
brief in support with an attached exhibit, (Doc. 117).
As discussed below, the court will not consider
Crown’s Financial Statement which plaintiff has submitted with her opposition brief and will strike the portions
of her brief regarding this document. As such, the court
will grant plaintiff’s motion to file her opposition brief,
(Doc. 110-2), as well as her reply brief, (Doc. 117-1), under
seal and it will grant Crown’s motion to strike, (Doc. 114),
the attached exhibit, (Doc. 110-3), to plaintiff’s opposition
brief and any reference to the exhibit in both of her briefs,
(Doc. 110-2) and (Doc. 117-1).
II. STANDARD OF REVIEW

“The purpose of a motion for reconsideration is to correct manifest errors of law or fact or to present newly discovered evidence.” Harsco v. Zlotnicki, 779 F.2d 906, 909
(3d Cir. 1985). “Accordingly, a judgment may be altered
or amended if the party seeking reconsideration shows at
least one of the following grounds: (1) an intervening
change in the controlling law; (2) the availability of new
evidence that was not available when the court granted
the motion for summary judgment; or (3) the need to correct a clear error of law or fact or to prevent manifest injustice.” Howard Hess Dental Labs. Inc. v. Dentsply Intern., Inc., 602 F.3d 237, 251 (3d Cir. 2010) (quoting Max’s
Seafood Café ex rel. Lou-Ann, Inc. v. Quinteros, 176 F.3d
669, 677 (3d Cir. 1999)); Chesapeake Appalachia, L.L.C. v.
Scott Petroleum, LLC, 73 F. Supp. 3d 488, 491 (M.D. Pa.
2014) (Generally, reconsideration motions should be
granted sparingly.); Cont’l Cas. Co. v. Diversified Indus.,
Inc., 884 F. Supp. 937, 943 (E.D. Pa. 1995). “The standard
for granting a motion for reconsideration is a stringent
one . . . . [A] mere disagreement with the court does not

23a
translate into a clear error of law.” Chesapeake Appalachia, L.L.C., 73 F. Supp. 3d at 491 (quoting Mpala v.
Smith, Civ. No. 3:CV-06-841, 2007 WL 136750, at *2 (M.D.
Pa. Jan. 16, 2007), aff’d, 241 F. App’x 3 (3d Cir. 2007)) (alteration in original). Additionally, “‘new evidence,’ for reconsideration purposes, does not refer to evidence that a
party obtains or submits to the court after an adverse ruling. Rather, new evidence in this context means evidence
that a party could not earlier submit to the court because
that evidence was not previously available.” Howard
Hess Dental Labs., 602 F.3d at 251 (citation omitted).
“Evidence that is not newly discovered, as so defined, cannot provide the basis for a successful motion for reconsideration.” Blystone v. Horn, 664 F.3d 397, 416 (3d Cir.
2011) (citing Harsco, 779 F.2d 906, 909 (3d Cir.1985)).
III. DISCUSSION

Initially, the court will address plaintiff’s (Doc. 110)
motion and request to submit a portion of Crown’s Financial Statement. 2 Plaintiff states that the exhibit to her opposition brief contains information which Crown designated as “Confidential” and “Attorney Eyes Only” and,
thus is protected under the protective order entered by
the court, (Doc. 47). However, plaintiff requests that the
court allow her to file her brief not under seal and that the
court consider this “very limited unredacted information”
since it is directly relevant to the issue presented in
Crown’s motion for reconsideration, i.e., whether Crown
is a “debt collector” subject to the FDCPA. Plaintiff
states that under the factors of Pansy v. Borough of
Stroudsburg, 23 F.3d 772 (3d Cir. 1994), her need for the
2
Because the relevant portions of Crown’s Financial Statement are
protected from disclosure and contained in plaintiff’s (Doc. 110-3) filing at page 3, which is under seal, the court will not state the provisions herein.

24a
information outweighs any injury to Crown that may result if the court allows its disclosure because the information shows that the principal purpose of Crown’s business is the collection of debts. Alternatively, plaintiff requests the court to allow her to file her opposition brief
with the attached information as well as her reply brief
under seal if it determines that Crown can establish good
cause by showing disclosure would cause it harm.
Crown opposes plaintiff’s motion to file the exhibit either under seal or not and requests the court to strike this
information under Fed. R. Civ. P. 12(f). (Doc. 114). In
Tennis v. Ford Motor Co., 730 F.Supp.2d 437, 443 (W.D.
Pa. 2010), the court explained as follows regarding a Rule
12(f) motion:
Under Fed. R. Civ. P. 12(f) “[t]he court may strike
from a pleading an insufficient defense or any redundant, immaterial, impertinent, or scandalous matter.”
Rule 12(f) “permits the court, on its own motion, or on
the timely motion of a party, to order stricken from
any pleading any insufficient defense or any redundant, immaterial, impertinent, or scandalous matter.”
Adams v. Cnty. of Erie, Pa., 2009 WL 4016636 at *1
(W.D. Pa. Nov. 19, 2009) (quoting Fed. R. Civ. P. 12(f)).
“The purpose of a motion to strike is to clean up the
pleadings, streamline litigation, and avoid unnecessary forays into immaterial matters.” Natale v. Winthrop Resources Corp., 2008 WL 2758238 at *14 (E. D.
Pa. July 9, 2008) (quoting McInerney v. Moyer Lumber & Hardware, Inc., 244 F.Supp.2d 393, 402 (E.D.
Pa. 2002)).
Crown contends that plaintiff’s motion should be denied for the following reasons:

25a
First, the [Financial Statement] Document is immaterial since it was prepared by Crown’s auditor and contains non-binding, non-sworn, non-legal statements.
Second, the Document should not be considered because the Plaintiff failed to follow the specific procedure set forth in the Confidentiality and Discovery
Protective Order. Third, the Document is irrelevant
for the principal business purpose that the Plaintiff
seeks to use it because, post-Henson, Crown is a creditor, not a debt collector, under the [FDCPA].
(Doc. 114-1).
Crown states that on September 8, 2015, its counsel
emailed plaintiff’s counsel several pages of bates-stamped
information, including the subject Financial Statement,
i.e., “CAM 303 through CAM 320”, which was designated
as “ATTORNEYS’ EYES ONLY–SUBJECT TO DISCOVERY CONFIDENTIALITY ORDER.”
The court finds that the information plaintiff now
seeks to introduce was not part of the record before Judge
Nealon when he rendered his March 30, 2017 decision.
Nor did the court rely on this information when it issued
its prior decision. Rather, the court based its decision on
the record before it, including the statement of material
facts of Crown, portions of which it found undisputed. As
in Howard Hess Dental Labs., 602 F.3d at 252, “[n]othing
in the record suggests that the evidence the Plaintiff[]
[seeks] to present post-summary judgment was unavailable to [it] when [it] filed [its] summary judgment motion.”
In fact, Crown sent plaintiff the information in September
2015. The Third Circuit has held that “[t]he scope of a
motion for reconsideration, . . . , is extremely limited”
and that “[s]uch motions are not to be used as an opportunity to relitigate the case.” Blystone, 664 F.3d at 416.
Further, Crown’s motion for reconsideration is based
only on Henson, a change in controlling law, and the legal

26a
issue of whether Henson effects this court’s decision finding that Crown was a “debt collector” based on the Check
Investors case. As mentioned, Crown argues that “postHenson, Crown is a creditor, not a debt collector, under
the [FDCPA].” The issues considered by the court in its
March 30, 2017 decision, (Doc. 100, p. 15), were whether
Crown was a “debt collector” under the FDCPA at the
time of the violations alleged by plaintiff, Turning Point’s
status as a “debt collector” under the FDCPA, and
whether Crown is liable for the alleged FDCPA violations
committed by Turning Point. The court found that Crown
acquired plaintiff’s account while in default and that
Crown was a “debt collector” under the principal purpose
definition of the FDCPA. As such, the court found that
Crown could be vicariously liable for the alleged violations
committed by Turning Point based on the Pollice case.
Thus, the court in its discretion will not consider
Crown’s Consolidated Financial Statement for years
2012-2014, which plaintiff is attempting to submit after
the summary judgment motions were ruled upon, since
this information was available to her prior to the filing of
the summary judgment motions. See Howard Hess Dental Labs., 602 F.3d at 252 (citing Harsco, 779 F.2d at 909
(“district court correctly did not consider affidavit filed after summary judgment was granted because it ‘was available prior to the summary judgment’”)). As such, the
court will strike Crown’s Consolidated Financial Statement under Rule 12(f), (Doc. 110-3), as well as plaintiff’s
references to it in her opposition brief and her reply brief,
and will not consider this information in deciding Crown’s
motion for reconsideration.
The court will now address the heart of the matter,
namely, whether the court’s prior decision that Crown
qualifies as a “debt collector” under FDCPA, still holds
water in light of Henson.

27a
In its motion for reconsideration, Crown requests this
court to enter an Order “(a) reconsidering this court’s
March 30, 2017 Order that found Crown to be a debt collector, (b) concluding Crown to be a creditor, [and] (c) entering summary judgment in favor of Crown and against
the Plaintiff upon Counts I and II of the First Amended
Complaint.” Crown’s instant motion for reconsideration
is based on a change in controlling law, namely, Henson.
However, the parties dispute as to whether Henson is
controlling with respect to this case. “In Henson, the
Court held that individuals and entities who regularly
purchase debts originated by someone else and then seek
to collect on those debts do not qualify as debt collectors
under the second prong of 15 U.S.C. §1692a(6) because
they are not attempting to collect the debt of another.”
Deal v. Trinity Hope Associates, LLC, 2017 WL 3026401,
at *3 n. 2 (W.D. N.C. July 17, 2017) (citing Henson, 137 S.
Ct. at 1721-25); Schweer v. HOVG, LLC, 2017 WL
2906504, at *2 (M.D. Pa. July 7, 2017) (In Henson, “[t]he
Court ruled that Congress did not intend for debt buyers
to be considered debt collectors for the purposes of the
[FDCPA], where the debt buyers attempted to collect
debts for which the debt buyer now owned.”) (citing Henson, 137 S. Ct. at 1724).
Crown states that “Henson involves an identical issue
of substantial importance before this Honorable Court,
namely, whether Crown qualifies as a debt collector under
the [FDCPA] where it does not regularly collect or attempt to collect on debts owed or due another even when
the debts were in default when acquired.” (Doc. 102, p. 2).
In the March 30, 2017 Memorandum, Judge Nealon found
that Crown qualified as a “debt collector” under the first
definition of “debt collector” contained in the FDCPA
which was not at issue in Henson. His decision was based
upon, inter alia, an interpretation of the Third Circuit

28a
case of Fed. Trade Commission v. Check Investors, Inc.,
502 F.3d 159 (3d Cir. 2007), finding that Crown was acting
as a “debt collector” and subject to the FDCPA. (Doc.
100, pp. 24-26.); Check Investors, 502 F.3d at 173 (“[o]ne
attempting to collect a debt is a ‘debt collector’ under the
FDCPA if the debt in question was in default when acquired.”). Other circuits, namely, the Fourth (i.e., Henson
v. Santander Consumer USA, Inc., 817 F.3d 131, 135 (4th
Cir. 2016)) and Eleventh Circuits, held that under the
FDCPA, a purchaser of charged-off receivables is not a
debt collector simply because it acquired the defaulted
debts.
In opposition to Crown’s motion, plaintiff essentially
argues that Henson has no bearing on the present case
since it dealt with the distinction between a “debt collector” and a “creditor” with respect to the second definition
of debt collector under §1692a(6), as opposed to the first
definition, namely, a “principal purpose” debt collector,
which is the issue herein. In fact, as plaintiff points out,
the Henson Court specifically stated that the “principal
purpose” definition of debt collector was not at issue in
that case. Henson, 137 S. Ct. at 1721-25. As such, plaintiff
basically asserts that while Henson may be persuasive authority, it is not a change in controlling law.
In order to discuss whether Henson has any effect on
the present case and the court’s finding that Crown does
not fit the definition of a “debt collector” in light of Henson, the facts will be briefly repeated.
In 2007, plaintiff obtained a credit card from GE 3 for
personal use. She was unable to pay off her outstanding

3
The court uses the same abbreviations that the court referenced
in the March 30, 2017 memorandum, (Doc. 100), since the parties are
well familiar with them.

29a
balance. Between 2011 and 2013, plaintiff’s delinquent account with GE in the amount of $2,483.83, was basically
transferred as a charged-off receivable to Atlantic, then
to Security Credit, then to Brightwater, and finally to
Crown.
As the court stated in the March 30, 2017 memorandum, (Doc. 100, p. 8):
Crown is a purchaser of charged-off receivables. (Doc.
80, p. 2); (Doc. 84, p. 2). However, Crown does not directly collect on its charged-off receivables. (Id.). Rather, Crown refers all of its charged-off receivables to
third-parties for collection. (Id.). For example, on December 18, 2012, Crown entered into a service agreement (the “Service Agreement”) with Turning Point.
(Doc. 80, p. 5); (Doc. 84, p. 3). According to the Service
Agreement, Crown was seeking “to procure certain
collection services from” Turning Point. (Doc. 80-8, p.
2).
Based on the Service Agreement, Crown referred
plaintiff’s account to Turning Point on February 4, 2013.
On February 6, 2013, Turning Point, identifying itself as
a “National Debit Collection Agency,” issued a letter to
plaintiff, in part stating:
Our client, [Crown] has purchased your account and
all rights to the debt from [GE]. There is an outstanding balance due of $2,483.83. Our client’s records indicate that payment has not been received or processed
as of the date of this correspondence, and has therefore been listed for collection.
The letter also notified plaintiff that: This communication from a debt collector is an attempt to collect a
debt and any information obtained will be used for
that purpose. (Doc. 100, pp. 11-12) (emphasis original).

30a
Turning Point also left two voicemail messages for
plaintiff on her cellular telephone regarding her account
between February 4, 2013 and May 6, 2013. (See Doc. 100,
p. 13).
Crown did not review or approve the February 6, 2013
letter. Nor did Crown make any calls to plaintiff about
her account.
Subsequently, in May 2013, plaintiff filed a Chapter 7
bankruptcy petition and Crown then recalled her account
from Turning Point. Finally, on June 6, 2013, Crown
closed plaintiff’s account.
Plaintiff is proceeding on her amended complaint,
(Doc. 21), and only Crown remains as a defendant. Plaintiff alleges that Crown violated §1692e(11) and §1692g of
the FDCPA. (Id. at pp. 4-6). She also asserts class allegations with respect to her §1692g claim. (Id. at pp. 5-6).
Plaintiff essentially “claims that Turning Point failed to
identify itself as a debt collector when it called her to attempt collection of a debt, contrary to 15 U.S.C.
§1692e(11)” and that “Turning Point sent a letter [on February 6, 2013] which contained a statement that ‘overshadowed’ disclosures required by 15 U.S.C. §1692g.”
The claim under §1692g “is being pursued for a putative
class of Pennsylvania residents.”
In Douglass v. Convergent Outsourcing, 765 F.3d 299,
303 (3d Cir. 2014), the Third Circuit delineated the following elements that a plaintiff must prove to prevail on an
FDCPA claim: “(1) she is a consumer, (2) the defendant is
a debt collector, (3) the defendant’s challenged practice involves an attempt to collect a ‘debt’ as the Act defines it,
and (4) the defendant has violated a provision of the
FDCPA in attempting to collect the debt.”
At issue in this case regarding the reconsideration motion, is whether plaintiff can prove that Crown was a “debt
collector” under the FDCPA in light of Henson, 137 S. Ct.

31a
at 1723-24, which held that “an entity collecting a debt for
its own account is not a ‘debt collector’ under the FDCPA
even if it purchased the debt when it was in default.”
Bank of New York Mellon Trust Co. N.A. v. Henderson,
862 F.3d 29, 34 (D.C. Cir. 2017); Henson, 137 S. Ct. at 1724
(“So a company collecting purchased defaulted debt for its
own account . . . would hardly seem to be barred from
qualifying as a creditor under the statute’s plain terms.”).
Crown argues that it merely accepted an assignment of
plaintiff’s account after her debt was in default and that
based on Henson, it is not a debt collector.
Specifically, Crown contends as follows:
Crown is a creditor under the FDCPA. If Crown is a
creditor, it cannot be a debt collector, pursuant to
Third Circuit jurisprudence. Which means that because Crown is a creditor, one does not review
Crown’s principal business purpose. If this Court
were to ignore the mutual exclusivity issue, then
Crown would be both a creditor and a debt collector,
resulting in an outcome contrary to the law of this Circuit.
(Doc. 113, p. 2).
Crown states that it is not a third party collection
agency which the Court in Henson found to be the focus
of the FDCPA. Rather, Crown maintains that it is a debt
owner which was seeking to collect debts for itself. Crown
states it was not trying to collect on any debts “owed . . .
another”, language part of the second definition of debt
collector which was at issue in Henson. Crown states that
“as the current owner of the [plaintiff’s] Account, it would
be the entity to whom the account is ‘owed’ and not ‘another.’” As such, Crown maintains that under Henson, it
is not a debt collector. (Id. at pp. 3-4).

32a
Plaintiff contends that notwithstanding Henson,
Crown is a debt collector since Judge Nealon determined
in his March 30, 2017 Memorandum it met the “principal
purpose” definition of debt collector that was neither at
issue nor addressed in Henson.
The question in this case is whether Judge Nealon’s
holding in his March 30, 2017 decision that Crown qualified as a “debt collector” under the first definition of “debt
collector,” i.e., “any business the principal purpose of
which is the collection of any debts,” §1692a(6), is contrary
to the Henson decision despite the fact that Henson explicitly did not address this definition of debt collector.
Crown contends that “[a]pplying the ruling in Henson to
this case, Crown is not, and cannot be considered, a debt
collector under the FDCPA” since it is a person to whom
a debt is owed, fitting neatly into the FDCPA’s definition
of “creditor.” (Id.). Crown states that since it fits the definition of creditor, it cannot also be a debt collector with
respect to plaintiff’s account. Thus, Crown contends that
it acted on its own behalf, as a creditor, in its collection
efforts after it bought plaintiff’s account already in default. Crown encourages the court to broadly interpret
the definition of a debt collector and it cites to four cases
in which courts have done so after Henson. (Id. at pp. 45). Crown also submitted a notice of supplemental authorities on August 29, 2017, (Doc. 118), listing three additional cases, which were decided after Henson and after it
filed its reply brief, and which support its position that it
is a “creditor.” The court does not find the cases cited by
Crown in its brief and in its supplement to be persuasive,
including the recent case of Chernyakhovskaya v. Resurgent Capital Services L.P., 2017 WL 3593115 (D.N.J. Aug.
18, 2017). In Chernyakhovskaya, the court dismissed
plaintiff’s FDCPA claim against defendant LVNV which
had purchased plaintiff’s account while it was already in

33a
default and then referred the debt for collection to defendant Resurgent, without prejudice to file a second amended
complaint to “cure any deficiencies as to the allegations
against LVNV”, seemingly to see if plaintiff could show
that the principal purpose of LVNV’s business was the
collection of any debts.
Importantly, “[t]he FDCPA creates two ‘mutually exclusive’ categories, debt collectors and creditors, but only
debt collectors are regulated by the statute.” Bank of
New York Mellon Trust Co. N.A., 862 F.3d at 34 (citation
omitted). A “debt collector” is defined in the FDCPA as
“‘one who uses any instrumentality of interstate commerce or the mails in any business [1] the principal purpose of which is the collection of any debts, or [2] who regularly collects or attempts to collect, directly or indirectly,
debts owed or due or asserted to be owed or due another.’”
15 U.S.C. §1692a(6)). The FDCPA defines a “creditor” as
“any person who offers or extends credit creating a debt
or to whom a debt is owed.” 15 U.S.C. §1692a(4).
No doubt that the Third Circuit has held that “[a]s to
a specific debt, one cannot be both a ‘creditor’ and a ‘debt
collector,’ as defined in the FDCPA, because those terms
are mutually exclusive.” Check Investors, 502 F.3d at 173.
However, the court in its March 30, 2017 Memorandum,
(Doc. 100, p. 18), stated:
While a defendant in an FDCPA action cannot be both
a “creditor” and a “debt collector,” the United States
Court of Appeals for the Seventh Circuit has noted
that “for debts that do not originate with the one attempting collection, but are acquired from another,

34a
the collection activity related to that debt could logically fall into either category.” Schlosser v. Fairbanks
Capital Com., 323 F.3d 534, 536 (7th Cir. 2003).
The court then stated that “at least nominally, Crown
could be considered a ‘creditor’ under the FDCPA” since
it acquired plaintiff’s account, and since it was actually
owed the debt which it acquired by assignment. (Id., pp.
18-20). The court stated that based on the Check Investors case, when this situation occurs, you look to “the status of the debt when it was acquired to determine whether
the defendant was acting as a ‘creditor’ or ‘debt collector’
under the FDCPA” and, that “[o]ne attempting to collect
a debt is a ‘debt collector’ under the FDCPA if the debt in
question was in default when acquired.” Check Investors,
502 F.3d at 173. Now, based on Henson, “[t]hat the debt
was already in default when the [entity] purchased it did
not make the [entity] a debt collector.” Bank of New York
Mellon Trust Co. N.A., 862 F.3d at 34 (citing Henson, 137
S. Ct. at 1723-24); Niborg v. CitiMortgage, Inc., 2017 WL
3017633, at *2 (W.D. Wa. July 17, 2017) (“An entity that
seeks to collect a debt for its own account is not a ‘debt
collector’ under the FDCPA, even if it obtained the debt
from the loan originator after it went into default.” “Accordingly, a holder on a note and deed of trust does not
constitute a ‘debt collector’ under the FDCPA.”) (citing
Bank of New York Mellon Trust Co. N.A. v. Henderson,
supra); Chernyakhovskaya, 2017 WL 3593115, at *8
(“The holding in Henson overturned in part [Check Investors], which held that the FDCPA applied to entities who
were in the practice of purchasing debts and then seeking
to collect said debts.”) (citing Henson, 137 S. Ct. at 1721)).
Plaintiff cites to the Schweer case to support her contention that Henson should be narrowly applied. In a nutshell, the facts in Schweer, 2017 WL 2906504, at *1, are as
follows:

35a
Defendant HOVG, LLC, a collection agency acting on
behalf of Defendant Pendrick Capital Partners, LLC,
mailed a letter to the Plaintiff, Lori Schweer. HOVG,
identified in the letter as Bay Area Credit Service, advised Schweer that it was attempting to collect a debt
owed to [Pendrick] after Pendrick purchased Schweer’s
debt owed to “Broad Mountain Emerg Phys PLLC.”
Additionally, Pendrick did “not undertake or participate in independent collection actions.” Id.
In the Schweer case, 2017 WL 2906504, at *5, the court
stated that:
In [Henson], the Supreme Court specifically addressed only whether or not the defendant could be
found a debt collector when attempting to collect debts
owed to itself as opposed to “another.” Henson, 137 S.
Ct. at 1721. In holding that they could not, the Henson
Court appears to address circumstances similar to this
one, where Pendrick, as owner of the debt, and regardless of the origins of the debt, cannot be considered a
debt collector under the [FDCPA] for attempting to
collect a debt that they own. But the Henson Court
also made clear that its holding in that matter was narrow, and did not address the applicability of “in any
business the principal purpose of which is the collection of any debts[.]” Henson, 137 S. Ct. at 1721.
The Schweer Court, id., then stated that “[i]t is that
unaddressed language that Schweer asks the Court to apply to Pendrick now. As stipulated in the joint case management plan, Pendrick’s principal purpose of business ‘is
to buy defaulted debts and thereafter attempt to collect
those debts.’ The Defendants stipulated specifically that
Pendrick is indeed a debt collector for the purposes of the
Act.” The Schweer Court then concluded that “Henson
does not shield Pendrick from liability, as Pendrick fits in

36a
the remainder of the definition of a debt collector unaddressed by Henson” and that “[u]nder this definition of
debt collector, the unresolved question on the status of the
debt at the time of obtaining ownership is irrelevant.” Id.
Crown states that plaintiff’s reliance on the Schweer
case is misplaced and that Schweer is distinguishable from
this case since here there is no stipulation as to the application of the FDCPA and since it has continued to argue
that it is a creditor, not a debt collector. Crown also states
that “Schweer ignored this Court’s creditor analysis in
[the March 30, 2017 Memorandum, Doc. 100, pp. 24-25]”,
and its holding that “the Third Circuit has held that an
entity is a debt collector if (1) it is assigned a defaulted
debt, and (2) its principal business purpose is the collection of debts, or it regularly engages in debt collection.”
(citing Beard v. Ocwen Loan Serv., LLC, 2015 U.S. Dist.
LEXIS 128401, at *8 n.1 (M.D. Pa. Sept. 24, 2015) (emphasis added) (citing Pollice v. Nat’l Tax Funding, L.P.,
225 F.3d 379, 403 (3d Cir. 2000); Oppong v. First Union
Mort. Corp., 215 F.App’x 114 (3d Cir. 2007)).
Thus, Crown concludes that:
Under Henson, a debt purchaser of defaulted debt
does not trigger the statutory definition of a debt collector. So, post-Henson, the first part of the Pollice
analysis must be answered in the negative. As such, it
is not necessary to consider the second portion under
the Pollice analysis, which is the principal business
purpose query, and Crown cannot be a debt collector
under the FDCPA.
(Doc. 113, p. 8).
Plaintiff states that “the ‘principal purpose’ definition
covers all consumer debts, even if they are not owing to

37a
another and are instead owned by the debt collector defendant.” (Doc. 110-2, p. 13). She states that the Henson
decision was very narrow and did not address the definition of debt collector at issue in this case. She points out
that as the Schweer Court recognized, the status of her
debt at the time Crown bought it is not relevant and that
this court can still find Crown was a debt collector under
the principal purpose definition.
Crown argues that based on Henson, its summary
judgment motion should now be granted because it cannot
be considered a “debt collector” and the FDCPA does not
apply. Therefore, Crown contends that it cannot be held
liable under the FDCPA. The Supreme Court in Henson,
137 S. Ct. at 1720, “face[d] a question about who exactly
qualifies as a debt collector subject to the [FDCPA’s] rigors.” Chernyakhovskaya, 2017 WL 3593115, at *8. In
framing the issue in Henson, the Supreme Court stated
“what if you purchase a debt and then try to collect it for
yourself—does that make you a ‘debt collector’ too?”
Henson, 137 S. Ct. at 1720.
The court in Chernyakhovskaya, 2017 WL 3593115, at
*8, summarized the facts in Henson as follows:
CitiFinancial Auto loaned money to petitioners seeking to buy cars, petitioners then defaulted on those
loans, Santander subsequently purchased the defaulted loans from CitiFinancial, and Santander
sought to collect in a manner petitioners believed to be
troublesome under the FDCPA. Id. at 1721-22. Both
parties agreed that in deciding whether Santander’s
conduct falls within the meaning of the Act, it is necessary to look to the statutory language defining the
term “ ‘debt collector’ to embrace anyone who ‘regularly collects or attempts to collect. . . debts owed or

38a
due. . .another’.”
§1692a(6)).

Id. at 1721-22 (citing 15 U.S.C.

“All that remain[ed] in dispute is how to classify individuals and entities who regularly purchase debts
originated by someone else and then seek to collect
those debts for their own account. Does the Act treat
the debt purchaser in that scenario more like the repo
man or the loan originator?” The Supreme Court held
that a company may collect debts that it purchased for
its own account without triggering the statutory definition of a debt collector as defined by the FDCPA.
The FDCPA’s definition of debt collector includes
those who regularly seek to collect debts “owed . . .
another” and the statute’s plain language focuses on
third party collection agents regularly collecting for a
debt owner, not a debt owner seeking to collect debts
for itself. See ––– U.S. ––––, 137 S. Ct. 1718, 198
L.Ed.2d 177 (2017).
Based on Henson, Crown argues that it can no longer
be considered a “debt collector” in this case since it was
assigned plaintiff’s defaulted debt and then referred the
debt, which it now owned, for collection to Turning Point.
See Chernyakhovskaya, 2017 WL 3593115, at *9 (“Per
Henson, an entity that purchases a debt for its own account does not constitute a debt collector under the
FDCPA . . . .”). Crown also states that plaintiff must
show, in part, that it is a “debt collector” as defined by the
Act. See Douglass, 765 F.3d at 303. Thus, Crown maintains that it was a subsequent purchaser of plaintiff’s defaulted Account, that it retained Turning Point to collect
the debt for its own account, thus rendering it a creditor
under Henson.
Contrary to Crown’s position, the court does not read
Henson as impacting FDCPA cases beyond those which

39a
include a dispute concerning the second of the definition
of “debt collector” in §1692a(6). See Tepper v. Amos Financial, LLC, 2017 WL 3446886, at *8 (E.D. Pa. Aug. 11,
2017), appeal pending, (“In Henson, the Court held that
an entity that regularly purchases debts originated by a
third party and then seeks to collect those debts for its
own account is not a ‘debt collector’ under the second statutory definition.”). The court in Tepper also stated that
the first definition of “debt collector” provided in §1692a,
i.e., the defendant will be a debt collector if its “principal
purpose . . . is the collection of any debts,” was “explicitly
noted” by the Supreme Court to be “outside the scope of
its review.” Id. (citing Henson, 137 S. Ct. at 1721). Also,
as discussed above, the court concurs with Deal, LLC,
2017 WL 3026401, at *3 n. 2, which noted that “[i]n Henson, the Court held that individuals and entities who regularly purchase debts originated by someone else and
then seek to collect on those debts do not qualify as debt
collectors under the second prong of 15 U.S.C. §1692a(6)
because they are not attempting to collect the debt of another.”) (emphasis added). Therefore, this court declines
to expand Henson and hold that Crown can no longer be
considered a “debt collector” since it was assigned plaintiff’s defaulted debt, and thus is a creditor even if it fits
the principal purpose definition which was not addressed
in Henson. See Tepper, 2017 WL 3446886, at *8 (“[T]he
[FDCPA] provides two possible paths for a plaintiff to
prove that a particular defendant is a ‘debt collector.’”).
As such, while the court agrees with Crown that plaintiff’s
FDCPA claims fail insofar as she is relying on the second
statutory definition of “debt collector”, which was at issue
in Henson, since it applies to “debts owed . . . another,”
and the debt here was owed to Crown, it does not agree
with Crown that it can no longer be considered a “debt
collector” under the first statutory definition, not at issue

40a
in Henson, since it “applies to ‘any debts,’ provided only
that the entity’s principal purpose is the collection of such
debt.” Tepper, 2017 WL 3446886, at *8 (emphasis in original).
In the instant case, as Judge Nealon found in his
March 30, 2017 Memorandum, (Doc. 100, p. 23), Crown is
a purchaser of charged-off receivables, i.e., consumer accounts or commercial accounts, such as credit card accounts, where the consumer stopped paying on them, 4 and
plaintiff’s account was in default for over two years when
it was acquired by Crown by agreement dated January 30,
2013. Approximately 90%-95% of the accounts bought by
Crown are consumer accounts. After Crown buys consumer accounts, it validates the account, checks them for
bankruptcy and deceased consumers, and then forwards
them out to a collection agency to collect on the accounts.
According to Foster, Crown does not ever collect on accounts directly. (Doc. 86, p. 6). As indicated, this court is
adhering to the record and the undisputed facts which
Judge Nealon found in his March 30, 2017 Memorandum
for purposes of deciding Crown’s motion for reconsideration.
In his March 30, 2017 Memorandum, (Doc. 100, pp. 2526), Judge Nealon concluded as follows:
In addition to arguing that Crown acquired the Account when it was in “default,” Plaintiff also argues
that Crown’s “principal purpose” is the collection of
“any debts.” (Doc. 79, pp. 14-15). The summary judgment record supports Plaintiff’s position. Specifically,
it is undisputed that Crown purchases “charged-off receivables,” (Doc. 84, p. 2); (Doc. 94, p. 2), which, as
4
See also deposition transcript of Jessica Foster, Vice President of
operations for Crown and Crown’s Rule 30(b)(6) corporate designee,
(Doc. 86, p. 5).

41a
noted above, are defaulted accounts where the consumer has stopped paying on the debt. See (Doc. 80-3,
p. 3). According to Jessica Foster, . . . Crown is “a
debt purchaser.” (Doc. 83, p. 10); (Doc. 86, p. 5). While
Crown claims that it “does not collect on charged-off
receivables,” it does not dispute that it “refers all
charged-off receivables to third-party, independent
servicers” for collection. (Doc. 84, p. 2); see also (Doc.
80, p. 2); (Doc. 91, p. 2); (Doc. 94, pp. 2-3). As a result,
there is no dispute that Crown’s principal purpose is
to acquire accounts in “default” for the purpose of collection. See (Doc. 80, p. 2); (Doc. 84, p. 2); also (Docs.
94-1 - 94-3). Further, approximately ninety (90) to
ninety-five (95) percent of Crown’s receivables concern consumers. (Doc. 86, p. 12). Therefore, it is determined that Crown’s “principal purpose” is the collection of “debts” and, thus, meets the definition of a
“debt collector” under section 1692a(6) the FDCPA.
See Pollice, 225 F.3d at 404, 405 n.28; see also Oppong,
215 F.App’x at 118-20; Martsolf v. JBC Legal Gm.,
P.C., 2008 U.S. Dist. LEXIS 6876, at *42-45 (M.D. Pa.
Jan. 30, 2008) (Conner, J.).
As plaintiff explains, in Pollice, 225 F.3d at 404, “the
Third Circuit observed that ‘there is no question that the
‘principal purpose’ of [the defendant debt buyer’s] business is the ‘collection of any debts,’ namely, defaulted obligations which it purchases from municipalities.” Plaintiff then concludes that this “standard remains unaffected
by Henson, and is the law of [the Third] Circuit.” (Doc.
110-2, p. 17). Plaintiff also notes, (Id., n. 1), that:
Pollice separately held that the debt collector was a
debt buyer based on the fact that it purchased debts
after they had gone into default. That particular language is no longer good law after Henson. But, the

42a
court’s unrelated statement that purchasing obligations constitutes the collection of debt was not reliant
on that discredited language.
As such, plaintiff maintains that Crown can still be a “debt
collector” under the first definition not addressed in Henson.
Simply put, this court declines to expand Henson and
hold that Crown is not a “debt collector” even though it
bought plaintiff’s account after it was defaulted and
Crown fits the principal purpose definition in §1692a(6).
As mentioned, Judge Nealon in his March 30, 2017 Memorandum, (Doc. 100, pp. 25-26), held that “Crown’s ‘principal purpose’ is the collection of ‘debts’” and that it met
the principal purpose definition of “debt collector.”
The formula utilized by the court in its March 30, 2017
Memorandum to determine whether Crown was acting as
a “creditor” or “debt collector” has been followed subsequent to Henson. In particular, in Martin v. Fein Such
Kahn & Shepard, P.C., 2017 WL 2958501, at *5 (D.N.J.
July 11, 2017), the court stated that “[u]nder the FDCPA
creditors are treated as debt collectors if they are thirdparty buyers of debt, and if the debt was in default at the
time the third-party purchased it.” (citing Pollice, 225
F.3d at 403).
This court does not find any of the requisite grounds
necessary to grant Crown’s motion for reconsideration.
Based on the existing record and based on current Third
Circuit precedent, this court will adhere to Judge
Nealon’s finding in his March 30, 2017 Memorandum that
Crown meets the definition of a “debt collector” under
§1692a(6) of the FDCPA. Thus, it will not address
Crown’s penultimate argument, namely, that since it is a
“creditor”, it cannot be vicariously liable for the actions of
Turning Point.

43a
IV. CONCLUSION

Accordingly, the court will deny Crown’s motion for
reconsideration, Doc. 107. The court will give the parties
60 days to file renewed summary judgment motions pursuant to Judge Nealon’s March 30, 2017 Memorandum,
(Doc. 100, p. 45), regarding the issue of whether Turning
Point was a “debt collector” under the FDCPA.
The court will continue to hold the Doc. 64 motion of
plaintiff to certify class in abeyance until it decides the renewed dispositive motions.
V. CERTIFICATION UNDER 28 U.S.C. §1292(b)

In order to certify a non-final order for interlocutory
appeal, the court must find that: (1) the order involves a
controlling question of law; (2) there is substantial ground
for difference of opinion as to the controlling question of
law; and (3) an immediate appeal has the potential to materially advance the ultimate termination of the litigation.
See Katz v. Carte Blanche Corp., 496 F.2d 747, 753-54 (3d
Cir. 1974), cert. denied, 419 U.S. 885, 95 S. Ct. 152 (1974);
Nationwide Life Ins. Co. v. Commonwealth Land Title
Ins. Co., 2011 WL 1044864, at *2 (E.D. Pa. March 23,
2011). For the reasons set forth in the instant Memorandum as well as the Order that will issue simultaneously
with this Memorandum, the court finds that each of the
three elements is satisfied. As such, the court finds that
certification pursuant to §1292(b) is appropriate in this
case.
An appropriate order will issue.
Dated: November 16, 2017

/s/ Malachy E. Mannion
Malachy E. Mannion
United States District Judge

44a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT
OF PENNSYLVANIA
MARY BARBATO,
Plaintiff,
v.
GREYSTONE ALLIANCE, LLC, ET AL.,
Defendants.
Civil Action No. 3:13-CV-2748
(Judge Nealon)
MEMORANDUM
On October 7, 2013, Plaintiff, Mary Barbato, brought
an action against Defendant Greystone Alliance, LLC
(“Greystone”) in the Court of Common Pleas of Wayne
County, Pennsylvania. (Doc. 2). On November 8, 2013,
Greystone removed the action to this Court. (Doc. 1).
On January 28, 2014, Plaintiff moved to amend her
complaint, which was granted on June 13, 2014. (Docs. 11,
20). On that same date, Plaintiff filed an amended complaint against Defendants Greystone; Turning Point Capital, Inc. (“Turning Point”); and Crown Asset Management, LLC (“Crown”) alleging violations of the Fair Debt
Collection Practices Act, 15 U.S.C. § 1692 et seq.
(“FDCPA”). (Doc. 21). In particular, Plaintiff claims that
Defendants violated sections 1692e(11) and 1692g of the

45a
FDCPA. (Id. at pp. 4-6). Additionally, Plaintiff advances
class allegations as to the section 1692g claim. (Id. at pp.
5-6). To date, Greystone and Turning Point have been dismissed from the action. (Docs. 66, 99).
On January 15, 2016, Plaintiff moved to certify the
class. (Doc. 64). On April 14, 2016, Plaintiff filed a motion
seeking a ruling on her class certification motion prior to
ruling on her motion for summary judgment. (Doc. 76).
On April 15, 2016, each remaining party, Plaintiff and
Crown, moved for summary judgment. (Docs. 77, 78).
On May 19, 2016, Plaintiff filed a reply in support of
her motion seeking a ruling on her class certification motion prior to a ruling on her motion for summary judgment. (Doc. 93). In the reply, Plaintiff stated that she no
longer sought “a ruling on Plaintiff’s motion for class certification prior to a ruling on Plaintiff’s motion for summary judgment on liability.” (Id. at p. 2). “With [Crown],”
Plaintiff requested “that the Court rule on the parties’
cross-motions for summary judgment in advance of Plaintiff’s motion for class certification.” (Id.). As a result, the
Court issued an Order deeming Plaintiff’s April 14, 2016
motion for a ruling on her class certification motion prior
to ruling on her motion for summary judgment withdrawn. (Doc. 97); see (Doc. 93, p. 2). The Order also states
that the Court will defer ruling on, inter alia, Plaintiff’s
motion for class certification until after disposition of the
parties’ respective motions for summary judgment. (Doc.
97).
Each pending summary judgment motion has been
fully briefed and, thus, both are ripe for disposition. See
(Docs. 79-80, 83-87, 90-91, 94-96). For the reasons stated
below, both summary judgment motions will be denied.

46a
I.

STANDARD OF REVIEW

Summary judgment “should be rendered if the pleadings, the discovery and disclosure materials on file, and
any affidavits show that there is no genuine issue as to any
material fact and that the movant is entitled to judgment
as a matter of law.” FED. R. CIV. P. 56(c); Turner v.
Schering-Plough Corp., 901 F.2d 335, 340 (3d Cir. 1990).
The party moving for summary judgment bears the burden of showing the absence of a genuine issue as to any
material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323
(1986).
Once this showing has been made, the non-moving
party must offer specific facts contradicting those averred
by the movant to establish a genuine issue of material fact.
Lujan v. Nat’l Wildlife Fed’n, 497 U.S. 871, 888 (1990).
“[T]he non-movant must go beyond the pleadings, pointing to particular facts that evidence a genuine dispute for
trial.” Shank v. Experian Info. Solutions, Inc., 2016 U.S.
Dist. LEXIS 2679, at *l (M.D. Pa. Jan. 11, 2016) (Jones,
J.) (citing Guidotti v. Legal Helpers Debt Resolution,
L.L.C., 716 F.3d 762, 773 (3d Cir. 2013)). In particular, for
a non-moving party to prevail on a motion for summary
judgment, they “‘must show specific facts such that a reasonable jury could find in that party’s favor, thereby establishing a genuine issue of fact for trial.’” McGlynn v.
Reliance Standard Life Ins. Co., 2015 U.S. Dist. LEXIS
168589, at *9-10 (M.D. Pa. Dec. 17, 2015) (Caputo, J.)
(quoting Galli v. N.J. Meadowlands Comm’n, 490 F.3d
265, 270 (3d Cir. 2007)). “‘While the evidence that the nonmoving party presents may be either direct or circumstantial, and need not be as great as a preponderance, the
evidence must be more than a scintilla.’” Galli, 490 F.3d
at 270 (quoting Hugh v. Butler Cnty. Family YMCA, 418
F.3d 265, 267 (3d Cir. 2005)).

47a
All inferences “should be drawn in the light most favorable to the nonmoving party, and where the nonmoving party’s evidence contradicts the movant’s, then the
non-movant’s must be taken as true.” Pastore v. Bell Tel.
Co., 24 F.3d 508, 512 (3d Cir. 1994) (quoting Big Apple
BMW, Inc. v. BMW of N. Am., Inc., 974 F.2d 1358, 1363
(3d Cir. 1992), cert. denied, 507 U.S. 912 (1993)). “[T]he
non-moving party may not oppose summary judgment
simply on the basis of the pleadings, or on conclusory
statements that a factual issue exists.” Swinka Realty
Invs., LLC v. Lackawanna Cnty. Tax Claim Bureau,
2016 U.S. Dist. LEXIS 86328, at *20-21 (M.D. Pa. July 1,
2016) (Mariani, J.) (citing Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986)). Pursuant to Federal Rule
of Civil Procedure 56:
A party asserting that a fact cannot be or is genuinely
disputed must support the assertion by citing to particular parts of materials in the record . . . or by showing that the materials cited do not establish the absence or presence of a genuine dispute, or that an adverse party cannot produce admissible evidence to
support the fact.
Fed. R. Civ. P. 56(c)(l)(A)-(B). Additionally, “[i]n evaluating whether summary judgment should be granted, ‘[t]he
court need consider only the cited materials, but it may
consider other materials in the record.’” Fed. R. Civ. P.
56(c)(3).
Further, the summary judgment standard “is no different where,” as in this case, ‘‘there are cross-motions for
summary judgment.” Lawrence v. City of Philadelphia,
527 F.3d 299, 310 (3d Cir. 2008). When a court is “‘confronted with cross-motions for summary judgment, the
court must rule on each party’s motion on an individual
and separate basis, determining, for each side, whether a

48a
judgment may be entered in accordance with the summary judgment standard.’” Swinka Realty Invs., LLC,
2016 U.S. Dist. LEXIS 86328, at *22 (quoting Marciniak
v. Prudential Fin. Ins. Co. of Am., 184 F. App’x 266, 270
(3d Cir. 2006)). According to the United States Court of
Appeals for the Third Circuit:
[c]ross-motions are no more than a claim by each side
that it alone is entitled to summary judgment, and the
making of such inherently contradictory claims does
not constitute an agreement that if one is rejected the
other is necessarily justified or that the losing party
waives judicial consideration and determination
whether genuine issues of material fact exist.
Lawrence, 527 F.3d at 310 (quoting Rains v. Cascade Indus., Inc., 402 F.2d 241, 245 (3d Cir. 1968)); Holton v.
Huff, 2012 U.S. Dist. LEXIS 53185, at *5 (M.D. Pa. Apr.
16, 2012) (Mariani, J.). On cross motions for summary
judgment, “[e]ach movant must show that no genuine issue of material fact exists; if both parties fail to carry their
respective burdens, the court must deny the motions.”
Holton, 2012 U.S. Dist. LEXIS 53185, at *5 (citing
Facenda v. N.F.L. Films, Inc., 542 F.3d 1007, 1023 (3d
Cir. 2008)). “When reviewing each motion, the court is
bound to view the evidence in the light most favorable to
the nonmovant.” Id. (citing Fed. R. Civ. P. 56; United
States v. Hall, 730 F. Supp. 646,648 (M.D. Pa. 1980)
(Nealon, J.)).
“Where there is no material fact in dispute, the moving
party need only establish that it is entitled to judgment as
a matter of law.” Schwab v. Reamstown Mut. Ins. Co.,
2006 U.S. Dist. LEXIS 82815, at *3 (M.D. Pa. Nov. 14,
2006) (Caputo, J.). However, “[i]f the ‘non-moving party
fails sufficiently to establish the existence of an essential
element of its case on which it bears the burden of proof

49a
at trial, there is not a genuine dispute with respect to a
material fact and thus the moving party is entitled to judgment as a matter of law.’” Mancini v. Northampton
Cnty., 836 F.3d 308, 313-14 (3d Cir. 2016) (quoting Blunt
v. Lower Merion Sch. Dist., 767 F.3d 247, 265 (3d Cir.
2014)).
II. STATEMENT OF FACTS

On or about September 7, 2007, Plaintiff obtained a
“Care Credit” card which was used for personal, family,
or household purposes (the “Account”). (Doc. 80, p. 2);
(Doc. 84, p. 2); (Doc. 94, p. 4). On November 15, 2010,
Plaintiff made her last payment on the Account to GE
Electric Capital Corporation and GE Money Bank (collectively “GE”). (Doc. 84, pp. 2-3); (Doc. 94, pp. 4-5). At that
time, Plaintiff had an outstanding balance on her Account.
See (Doc. 80, pp. 3-4); (Doc. 84, p. 5); (Doc. 91, p. 5). On
June 16, 2011, GE charged off the delinquency balance on
Plaintiff’s Account. (Doc. 84, p. 3); (Doc. 94, p. 5). On or
about July 27, 2011, by agreement dated January 7, 2011,
GE sold, transferred, and assigned certain charged-off receivables, including Plaintiff’s Account, to Atlantic Credit
and Finance Special Finance Unit III, LLC (“Atlantic”).
(Id.). On or about October 18, 2011, by agreement dated
June 20, 2011, Atlantic sold, transferred, and assigned
certain charged-off receivables, including Plaintiff’s Account, to Security Credit Services, LLC (“Security
Credit”). (Id.). On or about January 30, 2012, Security
Credit sold, transferred, and assigned certain charged-off
receivables, including Plaintiff’s Account, to Brightwater
Capital, LLC (“Brightwater”). (Doc. 84, p. 3); (Doc. 94, p.
5). By agreement dated January 30, 2013, Brightwater
sold, transferred, and assigned certain charged-off receivables, which included Plaintiff’s Account, to Crown. (Doc.
80, p. 3); (Doc. 84, p. 3), (Doc. 94, pp. 5-6).

50a
Crown is a purchaser of charged-off receivables. (Doc.
80, p. 2); (Doc. 84, p. 2). However, Crown does not directly
collect on its charged-off receivables. (Id.). Rather,
Crown refers all of its charged-off receivables to thirdparties for collection. (Id.). For example, on December
18, 2012, Crown entered into a service agreement (the
“Service Agreement”) with Turning Point. (Doc. 80, p. 5);
(Doc. 84, p. 3). According to the Service Agreement,
Crown was seeking “to procure certain collection services
from” Turning Point. (Doc. 80-8, p. 2). Additionally, as
part of the Service Agreement, Turning Point agreed to
the following provisions:
2.1 From time to time and in its sole and absolute discretion, Forwarder may refer to Agency certain Accounts that are in default. Agency agrees to provide
the Services described in the Agreement. Except pursuant to Forwarder’s express consent, obtained in advance and in writing, Services will be provided exclusively by Agency’s employees and the referral of any
Account by Agency to a third party, without Forwarder’s prior written authorization, is expressly prohibited. In the case of any referral approved by Forwarder, Forwarder will not be obligated to pay compensation in excess of the Fee due to Agency. Forwarder retains the right, in its exclusive discretion, to
modify this Agreement at any time in regard to third
party referral standards by providing written notice
to Agency. Upon receipt by Agency, any such modification will be deemed fully incorporated into the
Agreement. . . .
4.1 Performance Standards. Agency shall perform
such services as Agency, in its professional judgment,
deems appropriate, subject to the terms of the [Ser-

51a
vice] Agreement and the laws and regulations governing the collections of such Accounts. Agency shall
maintain a complete, correct and current record of
each Account, which Forwarder may access and review at any time.
4.2 Due Diligence and Lawful Action. Agency agrees
to use due diligence and to employ lawful means in its
effort to collect on Accounts referred to Agency by
Forwarder. In providing services, Agency shall conform to a standard of practice and care that equals or
exceeds the standard applicable to other Agencies,
which provide similar services in the same state(s) as
Agency.
4.3 Settlements. Forwarder grants Agency authority
to settle any Account for an amount equal to or greater
than the percentages of balances identified in the Settlement Guidelines. Agency will not settle or in any
way compromise Accounts for less than the amounts
indicated in the Settlement Guidelines unless Agency
obtains prior written approval from the Company to
settle any Account for a lesser amount. . . . .
7.3 Forwarder, in its sole and exclusive discretion, may
instruct Agency to close and return any Account at
any time. . . .
8.1 Compliance with Applicable Laws. Agency represents, warrants, and covenants that when performing
its obligations under the [Service] Agreement, Agency
shall comply with all applicable federal, state, and local
laws, statutes, and regulations, including but not limited to the federal Fair Debt Collection Practices Act,
Truth in Lending Act, Fair Credit Reporting Act and
Gramm-Leach Bliley Act, as amended. Further

52a
Agency, while pursuing its duties hereunder with diligence and vigor, shall at all times maintain and protect
the good name and reputation of Forwarder. . . .
8.4 Audits. (a) Forwarder, or persons retained by
Forwarder, and federal and state regulatory agencies
that supervise Forwarder shall have the right to examine and audit Agency’s business, operations, security architecture, systems, procedures and practices
that relate to the Services and the Agency’s obligations under this Agreement. Forwarder may, among
other audit tasks, measure or evaluate Agency’s performance and professionalism, verify the accounting of
all funds, including any trust account, verify the accuracy and propriety of all commissions verify the timeliness of recording and remitting payments, verify the
adequacy of cash controls, and verify Agency’s overall
compliance with this Agreement. Audits may be performed, either on-site or remotely, at Forwarder’s discretion. Agency shall grant Forwarder access to its
system of record via electronic access to permit remote audits. On-premises audits and inspections will
be limited to one initial security audit and one annual
audit thereafter. Additional on-premises audits may
be conducted at Forwarder’s sole discretion upon the
occurrence of a Termination Event. Forwarder may
delegate the right to audit to any third party auditor
or examiner. On-premises audits and inspection shall
be conducted at Agency’s expense. During Agency’s
normal business hours, Agency shall provide to the auditor a reasonable workspace and the use of on-site
photocopying equipment, computer network, and telephones at no charge to Forwarder. Agency shall allow full and free access to records relating to any Account forwarded and shall provide necessary technical

53a
assistance as required to access these records. Forwarder agrees to advise Agency of the exceptions/discrepancies identified in any audit and agrees to allow
Agency a reasonable period of time to respond to
them. Where Forwarder determines Agency shall
take corrective measures, Agency shall submit to Forwarder a corrective action plan that will correct any
deficiencies. . . .
8.6 Customer Service and Quality. Agency agrees to
forward a copy of any written complaint received from
an Accountholder in regard to Agency’s handling of an
Account as well as the response made or action taken
by Agency. . . .
9.5 Independent Contractor Status. The [Service]
Agreement shall not be construed as creating an employee/employer agency, partnership, or joint venture
relationship between Agency and Forwarded. Each
party shall have the obligation to supervise, manage,
contract, direct, procure, perform or cause to be performed, all work to be performed under the [Service]
Agreement and shall be liable for all acts or omissions
of its employees and agents in performing their respective obligations hereunder.
(Doc. 80-8, pp. 4, 6-7, 10-11, 12); (Doc. 84, p. 4); (Doc. 86-3,
pp. 5, 9, 10-11, 12).
On February 4, 2013, pursuant to the Service Agreement, Crown referred Plaintiff’s Account to Turning
Point. (Doc. 80, p. 3); (Doc. 84, p. 5). On February 6, 2013,
Turning Point issued a letter to Plaintiff, which stated, in
relevant part, that:
Our client, Crown Asset Management, LLC has purchased your account and all rights to the debt from GE
Sales Finance. There is an outstanding balance due of

54a
$2,483.83. Our client’s records indicate that payment
has not been received or processed as of the date of
this correspondence, and has therefore been listed for
collection.
If you are unsure of its validity, you may contact us
directly at 1-800-872-9312 to obtain additional information regarding this obligation. Otherwise, you may
clear your account from our collection process immediately by sending the bottom portion of this letter
with your payment in full using the enclosed envelope.
Your account will be properly credited and you will receive no further communication from us on this account.
(Doc. 80, pp. 3-4); (Doc. 84, p. 5); (Doc. 91, p. 5). That letter
also contained the following language:
This communication from a debt collector is an attempt to collect a debt and any information obtained
will be used for that purpose.
Unless you, within thirty days after receipt of this notice, dispute the validity of this debt, or any portion
thereof, this office will assume this debt is valid. If you
notify this office in writing within the thirty-day period
that the debt, or any portion thereof, is disputed, our
office will obtain verification of the debt or a copy of a
judgment against you and a copy of such verification
or judgment will be mailed to you by our office. Upon
your written request within the thirty-day period, our
office will provide you with the name and address of

55a
the original creditor, if different from the current
creditor.
(Doc. 80-4, p. 2) (emphasis in original); (Doc. 91, p. 5). In
addition, at the head of the letter, Turning Point self-identified as a “National Debt Collection Agency.” (Doc. 80-4,
p. 2).
Subsequent to Crown’s referral of Plaintiff’s Account
to Turning Point, Turning Point left two (2) voicemail
messages for Plaintiff on her cellular telephone. (Doc. 84,
p. 5); (Doc. 94, p. 9). The transcript of the first voicemail
message left by Turning Point reads as follows:
Hi, this message is intended for Mary. Mary, my
name is Brian calling from Turning Point. I’m calling
in regards to a matter of yours that’s been placed here
in the office. It’s very important that you return my
call. You could reach me at 800-872-9312. Your file
number is 881811. Again, this is Brian calling from
Turning Point, and it’s important that I hear back
from you.
(Doc. 84, pp. 5-6); (Doc. 94, p. 9). The transcript of the
second voicemail from Turning Point reads as follows:
Hi, this message is intended for Mary Barbato. Mary,
my name is Brian. I’m calling from Turning Point.
And I’m calling in regards to a matter of yours that’s
been placed here in the office. It’s very important that
you return my call. You could reach me at 800-8729312. Your file number is 881811. Again, this is Brian
calling from Turning Point. It’s important that I hear
back from you. Thank you.
(Doc. 84, p. 6); (Doc. 94, pp. 9-10).
At all times relevant to the above-captioned action,
Crown did not issue any letters or place calls to Plaintiff
regarding her Account. (Doc. 84, p. 5); (Doc. 94, p. 8).

56a
Moreover, during that same period, Crown did not leave
any voicemail messages on Plaintiff’s telephone concerning her Account. (Id.). Additionally, prior to its issuance,
Crown neither reviewed nor approved the February 6,
2013 letter. (Doc. 84, p. 5); (Doc. 94, pp. 8-9).
On or about May 31, 2013, Plaintiff filed for Chapter 7
bankruptcy protection in the United States Bankruptcy
Court for the Middle District of Pennsylvania. (Doc. 84,
p. 6); (Doc. 94, p. 10). On June 5, 2013, Crown recalled
Plaintiff’s Account from Turning Point as a result of Plaintiff’s bankruptcy filing. (Id.). On June 6, 2013, Crown
closed Plaintiff’s Account. (Id.).
III. DISCUSSION
A. FDCPA

As stated, Plaintiff brings her claims under sections
1692e(11) and 1692g of the FDCPA. (Doc. 21, pp. 4-5).
“The FDCPA is intended to combat the use of abusive,
deceptive, and unfair debt collection practices by . . . debt
collectors.’” McDermott v. Nationstar Mortg., LLC, 2015
U.S. Dist. LEXIS 154310, at *13 (E.D. Pa. Nov. 13, 2015)
(quoting 15 U.S.C. § 1692(a)). The United States Court
of Appeals for the Third Circuit has stated that:
To prevail on an FDCPA claim, a plaintiff must prove
that (1) she is a consumer, (2) the defendant is a debt
collector, (3) the defendant’s challenged practice involves an attempt to collect a “debt” as the Act defines
it, and (4) the defendant has violated a provision of the
FDCPA in attempting to collect the debt.
Douglass v. Convergent Outsourcing, 765 F.3d 299, 303
(3d Cir. 2014).
Crown claims it is entitled to summary judgment because “Plaintiff cannot prove Crown was a debt collector
under the FDCPA, and imposition of vicarious liability

57a
would be contrary to the facts of the case and sound public
policy.” (Doc. 83, p. 1). Plaintiff contends she is entitled
to summary judgment because she was a “consumer,”
Crown and Turning Point were “debt collectors,” and
Turning Point violated sections 1692e(11) and 1692g of the
FDCPA in an attempt to collect a “debt.” (Doc. 79, pp. 1224). Moreover, Plaintiff argues that Crown should be vicariously liable “for Turning Point’s violations of the
FDCPA” because “[w]here one debt collector retains a
second debt collector to collect a consumer account, the
former is responsible for the FDCPA violations of the latter.” (Id. at p. 23) (citing Pollice v. Nat’l Tax Funding,
L.P., 225 F.3d 379, 405 (3d Cir. 2000); Janetos v. Fulton,
Friedman & Gullace, LLP, 825 F.3d 317 (7th Cir. Apr. 7,
2016); Fox v. Citicorp Credit Servs., Inc., 15 F.3d 1507,
1516 (9th Cir. 1994)).
Based upon the above-described motions for summary
judgment, the parties place the following at issue:
(1) whether Crown and Turning Point were “debt collectors” under the FDCPA at the time the alleged violations
occurred; (2) whether Crown is liable for the alleged collection activities of Turning Point; and (3) whether Turning Point violated sections 1692e(11) and 1692g of the
FDCPA. (Docs. 77-80, 83-84). As discussed in more detail
below, the Court need only address the first two (2) issues
to dispose of the motions for summary judgment at bar.
B. Crown’s Status Under the FDCPA

Plaintiff argues that, “at all relevant times, [Crown]
was [] a ‘debt collector’ as defined by the FDCPA.” (Doc.
79, p. 13). According to Plaintiff, “[t]he assignee of defaulted obligations may be considered a debt collector.”
(Id.) (citing Pollice, 225 F.3d at 403). Plaintiff states that
“[i]f the principal purpose of the assignee’s business is the
collection of defaulted obligations, then the assignee is

58a
deemed a debt collector, even if the assignee retains third
party debt collectors to collect the debts.” (Id.) (emphasis
in original) (citing Pollice, 225 F.3d at 403). Plaintiff
claims that Crown “is primarily engaged in the business
of purchasing consumer accounts in default and collecting
the debts using third party debt collection agencies.” (Id.
at p. 15).
Crown contends that it is entitled to summary judgment, and, thus, Plaintiff’s motion should be denied, because, inter alia, it is not a “debt collector” under the
FDCPA. (Doc. 83, pp. 6-11); (Doc. 90, pp. 5-11); (Doc. 96,
pp. 2-5). In particular, Crown argues that it does not meet
the definition of “debt collector” “simply because it took
an assignment of the Account while the debt was in default.” (Doc. 83, p. 9). Rather, according to Crown, Plaintiff must also show that Crown meets the statutory definition of “debt collector” found in section 1692a(6) of the
FDCPA. (Id.).
However, Crown contends, Plaintiff cannot show that
Crown meets the definition of “debt collector” for a number of reasons. (Doc. 83, p. 9). “First,” Defendant states
that “Jessica Foster, vice president of operations,” testified during a deposition that “Crown’s principal business
purpose is the purchase of charged-off receivables.” (Id.
at p. 10). “Second,” according to Crown, it “engages in no
collection activities on these receivables for itself” and
“does not collect debts owed to another.” (Id.). “Third,
Crown does not collect on its own debts and does not use
a name other than its own as if it were a debt collector.”
(Id.). Additionally, Crown argues that ‘‘Turning Point
was solely responsible for all collection actions on Plaintiff’s Account pursuant to the terms of the service agreement with Crown.” See (Id. at pp. 12-14); (Doc. 90, pp. 511); (Doc. 96, pp. 2-5).

59a
As stated, to obtain relief under the FDCPA, Plaintiff
must establish, among other things, that Crown was a
“debt collector.” See Douglass, 765 F.3d at 303. Notably,
‘‘the FDCPA draws a distinction between ‘debt collectors,’ who are covered by the statute, and ‘creditors,’ who
are not.” McDermott, 2015 U.S. Dist. LEXIS 154310, at
*13 (citing 15 U.S.C. § 1692a(6)). The FDCPA defines
“debt collector” as “‘any person who uses any instrumentality of interstate commerce or the mails in any business
the principal purpose of which is the collection of any
debts, or who regularly collects or attempts to collect, directly or indirectly, debts owed or due or asserted to be
owed or due another.’” McDermott, 2015 U.S. Dist.
LEXIS 154310, at *13 (quoting 15 U.S.C. § 1692a(6)). “A
‘creditor,’” on the other hand, “is broadly defined [by the
FDCPA] as one who ‘offers or extends credit creating a
debt or to whom a debt is owed,’ 15 U.S.C. § 1692a(4), and
a creditor is generally considered to be restrained from
abusive collection practices ‘by the desire to protect [its]
good will when collecting past due accounts . . . .” Id.
(internal citation omitted).
The United States Court of Appeals for the Third Circuit has stated “[a]s to a specific debt, one cannot be both
a ‘creditor’ and a ‘debt collector,’ as defined in the
FDCPA, because those terms are mutually exclusive.”
Fed. Trade Comm’n v. Check Investors, Inc., 502 F.3d
159, 173 (3d Cir. 2007). While a defendant in an FDCPA
action cannot be both a “creditor” and a “debt collector,”
the United States Court of Appeals for the Seventh Circuit has noted that “for debts that do not originate with
the one attempting collection, but are acquired from another, the collection activity related to that debt could logically fall into either category.” Schlosser v. Fairbanks
Capital Corp., 323 F.3d 534, 536 (7th Cir. 2003).

60a
For example, here, it is undisputed that Crown acquired Plaintiff’s Account and, thus, is actually the entity
to whom the Account is owed. (Doc. 80, p. 3); (Doc. 91, p.
3). Therefore, at least nominally, Crown could be considered a “creditor” under the FDCPA. See 15 U.S.C.
§ 1692a(4). However, in such situations, the Third Circuit
has looked to the status of the “debt” in question at the
time it was acquired to determine whether the defendant
was acting as a “creditor” or “debt collector” under the
FDCPA.
In particular, the Third Circuit has determined that
“[o]ne attempting to collect a debt is a ‘debt collector’ under the FDCPA if the debt in question was in default when
acquired.” Check Investors, 502 F.3d at 173; see Beard v.
Ocwen Loan Servicing, LLC, 2016 U.S. Dist. LEXIS
9945, at *2-3 (M.D. Pa. Jan. 28, 2016) (Caldwell, J.) (“Under prevailing law, however, if an ordinarily-exempt entity acquires a debt obligation after the debt was in default, the entity may be deemed a debt collector.”) (citing
Pollice, 225 F.3d at 403). “Admittedly,” the Third Circuit
stated in Check Investors, “focusing on the status of the
debt when it was acquired overlooks the fact that the person engaging in the collection activity may actually be
owed the debt and is, therefore, at least nominally a creditor.” Check Investors, 502 F.3d at 173. “Nevertheless,
pursuant to § 1692a, Congress has unambiguously directed our focus to the time the debt was acquired in determining whether one is acting as a creditor or debt collector under the FDCPA.” Id. Also, “[f]or this rule to apply, the entity must have acquired the defaulted debt by
assignment, not merger.” Beard, 2016 U.S. Dist. LEXIS
9945, at *3 (citing Pollice, 225 F.3d at 403).
Notably, “[t]he term ‘default’ is not defined in the
FDCPA.” Hoehn v. FCC Fin., LLC, 126 F. Supp. 3d 472,
475 (D. N.J. 2015). In determining whether a “debt” is

61a
considered in “default,” courts have taken a number of approaches and analyzed the issue on “‘case by case basis.’”
Cleary v. Hertz Rent-A-Car, 2013 U.S. Dist. LEXIS
106726, at *4-5 (E.D. Pa. July 29, 2013) (quoting Alamo v.
ABC Fin. Servs., Inc., 2011 U.S. Dist. LEXIS 5392, at *5
(E.D. Pa. Jan. 20, 2011) (“The FDCPA does not define the
term ‘default.’ This omission apparently is a deliberate
decision, leaving it to a court to decide what constitutes a
default on a case-by-case basis.”)).
One approach was discussed by the United States District Court for the Eastern District of Pennsylvania,
which stated that “[b]ecause the FDCPA does not provide
a definition of ‘default,’ some courts within the Third Circuit have looked to the statutory provisions governing,
and contractual provisions between, creditors and debtors
to determine whether a debt is in default at any given
time.” Haber v. Bank of Am., N.A., 2014 U.S. Dist.
LEXIS 87614, at *48 (E.D. Pa. June 27, 2014) (citing
Prince v. NCO Fin. Servs., Inc., 346 F. Supp. 2d 744, 748
(E.D. Pa. 2004)). However, the District Court noted,
“other courts have stated that, in view of the FDCPA’s
purpose of ‘eliminat[ing] abusive debt collection practices
by debt collectors,’ 15 U.S.C. § 1692(e), this standard is
sometimes too lenient towards the potential debt collector.” Haber, 2014 U.S. Dist. LEXIS 87614, at *48 (citing
Magee v. AllianceOne, Ltd., 487 F. Supp. 2d 1024, 1027-28
(S.D. Ind. 2007)). In reaching its decision, the District
Court in Haber determined that “the relevant question in
this case is whether [the defendants], not the [plaintiffs],
classified the debt as in ‘default’ at the relevant time.” Id.
(citing Prince, 346 F. Supp. 2d at 748; Roberts v. NRA
Grp., LLC, 2012 U.S. Dist. LEXIS 113021, at *17 (M.D.
Pa. Aug. 10, 2012) (Caputo, J.)). The District Court noted
in a footnote that:

62a
[i]n general, a better view, given the FDCPA’s purposes, would be to consider the debt in ‘default’ at the
time it was acquired if it could be said to have been in
default under either (a) a subjective view, because either the transferee or the transferor of the debt believed it was in default at the time of acquisition (following from Prince), or (b) an objective view.
Id. at *49 n.16 (citing Check Investors, Inc., 502 F.3d at
172 n.12).
Other courts have looked to the parties’ definition of
“default.” In particular, these courts ‘‘use the definition
[of ‘default’] contained in the applicable contract or agreement to determine when the debt is in default.” Hoehn,
126 F. Supp. 3d at 474 (citing Hartman v. Meridian Fin.
Servs., Inc., 191 F. Supp. 2d 1031, 1044 (W.D. Wis. 2002);
Prince, 346 F. Supp. 2d at 748; Alamo, 2011 U.S. Dist.
LEXIS 5392, at *12; Kapsis v. Am. Home Mortg. Servicing, Inc., 923 F. Supp. 2d 430, 440-43 (E.D.N.Y. 2013)).
Some courts, however, have declined “to accept the
contract definition of ‘default’ to determine if an entity is
subject to the FDCPA.” Hoehn, 126 F. Supp. 3d at 474.
Specifically, “in McGee v. AllianceOne, Ltd., 487 F. Supp.
2d 1024 (S.D. Ind. 2007), the court found it was improper
to ‘leave[] it to the discretion of the creditor whether to
declare default; by looking at the definition of default in
the defendant’s contract.” Id. at 474-75 (quoting McGee,
487 F. Supp. 2d at 1026). Evidencing a third approach, the
court in McGee:
considered the dictionary definition of “default” and
determined that a debt collector is an entity which contacts a consumer “specifically because a debtor has
missed a payment, and the creditor believes the debtor

63a
is more likely to bring her account current if she is contacted by a third-party debt collector than if she receives a routine bill from the creditor.”
Id. at 475 (quoting McGee, 487 F. Supp. 2d at 1028); see
Check Investors, 502 F.3d at 172 n.12 (defined “default” as
“‘the omission or failure to perform a legal or contractual
duty; esp., the failure to pay a debt when due.’”) (quoting
Black’s Law Dictionary 449 (8th ed. 2004)).
Here, it is undisputed that the Account was in “default” when it was acquired by Crown. See (Doc. 83, p. 9)
(“Crown argues it is not a debt collector simply because it
took an assignment of the Account while the debt was in
default.”); (Doc. 84, pp. 2-3); (Doc. 90, p. 10); (Doc. 94, pp.
4-5). In particular, it is undisputed that Crown purchases
“charged off receivables,” (Doc. 91, p. 2), which are consumer or commercial accounts where “[t]he consumer
stopped paying on them.” (Doc. 80-3, p. 3). Further, there
is no dispute that Plaintiff’s last payment on the Account
was made on November 15, 2010. (Doc. 84, p. 2); (Doc. 94,
p. 4). Also undisputed is the fact that, by agreement dated
January 30, 2013, over two (2) years after Plaintiff’s last
payment on the Account, Crown acquired Plaintiff’s Account. (Doc. 84, pp. 2-3); (Doc. 94, p. 5). Finally, the Service Agreement states that Crown “may refer to [Turning
Point] certain Accounts that are in default” (Doc. 86-3, p.
3). Therefore, the Court need not decide which approach
to apply in order to determine whether the Account was
in “default” when it was acquired by Crown because, as
stated, it is undisputed that the Account was in “default”
at the time Crown acquired it by agreement dated January 30, 2013. See (Doc. 83, p. 9); (Doc. 84, pp. 2-3); (Doc.
90, p. 10); (Doc. 94, pp. 4-5).
As discussed above, the United States Court of Appeals for the Third Circuit has held:

64a
that one attempting to collect a debt is a “debt collector” under the FDCPA if the debt in question was in
default when acquired. Conversely, [the Third Circuit] concluded that § 1692a means that an entity is a
creditor if the debt it is attempting to collect was not
in default when it was acquired.
Check Investors, 502 F.3d at 173 (citing Pollice, 225 F.3d
at 403-04). Thus, the status of Plaintiff’s Account at the
time Crown acquired it by agreement dated January 30,
2013, guides the determination regarding Crown’s status
under the FDCPA.
Under the present circumstances, since the undisputed facts establish that Account was in “default” when
Crown acquired it on January 30, 2013, the Court agrees
with Plaintiff that Crown was acting as “debt collector”
and, thus, subject to liability under the FDCPA. See
Evankavitch v. Green Tree Serv., LLC, 793 F.3d 355, 358
n.2 (3d Cir. 2015) (citing Pollice, 225 F.3d at 403); Pollice,
225 F.3d at 403; Beard v. Ocwen Loan Serv., LLC, 2015
U.S. Dist. LEXIS 128401, at *8 n.1 (M.D. Pa. Sept. 24,
2015) (Caldwell, J.) (citing Pollice, 225 F.3d at 403; Oppong v. First Union Mort. Corp., 215 F. App’x 114 (3d Cir.
2007)). However, Defendant is correct that the mere conclusion that Crown was assigned the Account when it was
in “default” does not end the inquiry. Rather, “the Third
Circuit has held that an entity is a debt collector if (1) it is
assigned a defaulted debt, and (2) its principal business
purpose is the collection of debts, or it regularly engages
in debt collection.” Beard, 2015 U.S. Dist. LEXIS 128401,
at *8 n.1 (emphasis added) (citing Pollice, 225 F.3d at 403;
Oppong, 215 F. App’x 114).
In addition to arguing that Crown acquired the Account when it was in “default,” Plaintiff also argues that
Crown’s “principal purpose” is the collection of “any

65a
debts.” (Doc. 79, pp. 14-15). The summary judgment record supports Plaintiff’s position. Specifically, it is undisputed that Crown purchases “charged­off receivables,”
(Doc. 84, p. 2); (Doc. 94, p. 2), which, as noted above, are
defaulted accounts where the consumer has stopped paying on the debt. See (Doc. 80-3, p. 3). According to Jessica
Foster, Crown’s Federal Rule of Civil Procedure 30(b)(6)
representative, Crown is “a debt purchaser.” See (Doc.
83, p. 10); (Doc. 86, p. 5). While Crown claims that it “does
not collect on charged-off receivables,” it does not dispute
that it “refers all charged-off receivables to third-party,
independent servicers” for collection. (Doc. 84, p. 2); see
also (Doc. 80, p. 2); (Doc. 91, p. 2); (Doc. 94, pp. 2-3). As a
result, there is no dispute that Crown’s principal purpose
is to acquire accounts in “default” for the purpose of collection. See (Doc. 80, p. 2); (Doc. 84, p. 2); see also (Docs.
94-1 - 94-3). Further, approximately ninety (90) to ninetyfive (95) percent of Crown’s receivables concern consumers. (Doc. 86, p. 12). Therefore, it is determined that
Crown’s “principal purpose” is the collection of “debts”
and, thus, meets the definition of a “debt collector” under
section l 692a(6) the FDCPA. See Pollice, 225 F.3d at 404,
405 n.28; see also Oppong, 215 F. App’x at 118-20; Martsolf v. JBC Legal Grp., P.C., 2008 U.S. Dist. LEXIS 6876,
at *42-45 (M.D. Pa. Jan. 30, 2008) (Conner, J.).
As a result of the foregoing, to the extent Crown argues it is entitled to summary judgment because it is not
a “debt collector” under the FDCPA, see (Doc. 83, pp. 511), its motion for summary judgment will be denied because, as stated, Crown meets the definition of a “debt collector” under the FDCPA. Therefore, as discussed in
more detail below, the Court must next consider Plaintiff’s argument that Turning Point meets the definition of
a “debt collector” under the FDCPA, (Doc. 79, pp. 13-15),

66a
and the portion of Defendant’s motion for summary judgment contending that it cannot be held vicariously liable
for the collection activities of Turning Point, (Doc. 83, pp.
12-14).
C. Turning Point’s Status Under the FDCPA

As part of her motion for summary judgement, in addition to claiming that Crown was a “debt collector,”
Plaintiff also argues that Turning Point qualifies as a
“debt collector” under the FDCPA. (Doc. 79, pp. 13-15).
Consequently, Plaintiff claims that Crown should be held
vicariously liable for the alleged debt collection activity of
Turning Point. See (Id. at pp. 13-15, 23-24). Crown, on
the other hand, claims that, if the Court determines it is a
“debt collector under the FDCPA, Plaintiffs motion
should be denied because it should not be held vicariously
liable for Turning Point’s alleged collection activity.
1
(Doc. 83, pp. 12-14). The issue of vicarious liability
will be addressed first.
In support of their respective arguments concerning
vicarious liability, the parties point to the Service Agreement, but reach differing conclusions. (Id. at pp. 15-17);
(Doc. 95, pp. 9-11). Specifically, Crown argues that the
While Crown states that “it appears Turning Point satisfies the
definition of a debt collector under the FDCPA,” (Doc. 83, p. 14) (emphasis added); (Doc. 90, p. 15), it also notes that it “cannot verify the
principal business purpose of Turning Point.” See (Doc. 91, p. 3).
Based on these statements, it is determined that Crown does not stipulate to Plaintiffs assertion that Turning Point’s “principal business
was collecting debts.” (Doc. 79, p. 14); (Doc. 80, p. 3). Rather, as discussed in more detail below, at this stage in the litigation, there is a
question as to whether Turning Point was a “debt collector” under
the FDCPA. Moreover, even if Turning Point’s status under the
FDCPA was undisputed, the Court would still be required by the
Federal Rules to determine whether Plaintiff has established her entitlement to judgment as a matter of law. See Fed R. Civ. P. 56(e)(3).
1

67a
Service Agreement “did not create an agency relationship” between Crown and Turning Point. (Doc. 83, p. 16).
“Rather,” Crown contends, ‘‘Turning Point had an obligation to ‘supervise, manage, contract, direct, procure, perform or cause to be performed’ its own work in collection
of Plaintiff’s account and to comply with all ‘applicable
federal, state, and local laws, statutes, and regulations.’”
(Id.). As a result, Crown argues that it should not be held
vicariously liable for Turning Point’s collection efforts.
(Id.). Plaintiff, on the other hand, argues that Crown’s engagement of Turning Point to collect on the Account, by
way of the Service Agreement, requires the imposition of
vicarious liability here due to Third Circuit precedent.
(Doc. 95, p. 11).
It is undisputed that Crown entered into a Service
Agreement with Turning Point on December 18, 2012. 2
See (Doc. 80, p. 5); (Doc. 84, p. 3); (Doc. 91, p. 7); (Doc. 94,
p. 6). Further, as noted, the parties do not dispute the
contents of the Service Agreement. See (Id.). Pursuant
to the Service Agreement, Turning Point agreed to provide collection services to Crown and ‘‘undertake collection on each [a]ccount placed by” Crown. (Doc. 86-3, p. 1).
Also undisputed is that on February 4, 2013, pursuant to
the Service Agreement, Crown referred Plaintiff’s Account to Turning Point for collection. (Doc. 80, p. 3); (Doc.
84, p. 5).
The Court notes that:

2
While the parties agree that Crown entered into the Service
Agreement with Turning Point, See (Doc. 80, p. 5); (Doc. 84, p. 3);
(Doc. 91, p. 7); (Doc. 94, p. 6), the Court notes that the record establishes that the Service Agreement was actually entered into between
Crown Asset Management 1, LLC (“CAM 1”) and Turning Point. See
(Doc. 86, pp. 19-20); (Doc. 86-3).

68a
[a]s recognized in the Pollice case, while there is relatively little case law on the subject of vicarious liability
under the FDCPA, there are cases supporting the notion that an entity which itself meets the definition of
‘debt collector’ may be held vicariously liable for unlawful collection activities carried out by another on its
behalf.
Gary v. Goldman & Co., 180 F. Supp. 2d 668, 673 (E.D.
Pa. Jan. 14, 2002) (citing Pollice, 225 F.3d at 404); see
Marucci v. Cawley & Bergmann, LLP, 66 F. Supp. 3d
559, 563 (D.N.J. 2014) (“‘The Third Circuit has observed
that, although not many cases specifically address vicarious liability under the FDCPA, there are several ‘supporting the notion that an entity which itself meets the
definition of “debt collector” may be held vicariously liable
for unlawful collection activities carried out by another on
its behalf.’”) (quoting Pollice, 225 F.3d at 404). “‘The rule
to be gleaned from’ the FDCPA vicarious liability cases”
within the Third Circuit is that:
Federal courts that have considered the issue have
held that the client of an attorney who is a ‘debt collector,’ as defined in § 1692a(6), is vicariously liable for
the attorney’s misconduct if the client is itself a debt
collector as defined in the statute. Thus, vicarious liability under the FDCPA will be imposed for an attorney’s violations of the FDCPA if both the attorney and
the client are debt collectors as defined in § 1692a(6).
Marucci, 66 F. Supp. 3d at 563 (quoting Pollice, 225 F.3d
at 404-05). Importantly, however, the Third Circuit “did
not confine its reasoning to the attorney-client relationship, however; its holding rested on the statute and more
general conceptions of vicarious liability for the acts of an
agent.” Id. “Thus, ‘[an entity]—which itself meets the

69a
definition of “debt collector”—may be held vicariously liable for [its hired collector’s] collection activity.’” Id.
(quoting Pollice, 225 F.3d at 405); see Martsolf, 2008 U.S.
Dist. LEXIS 6876, at *42 (“An entity that owns a debt
may be liable for FDCPA violations of a debt collector it
engages to collect the obligation provided that the owner
of the debt is itself a debt collector.”) (citing Pollice, 225
F.3d at 404); Hutt v. Albert Einstein Med. Ctr., 2005 U.S.
Dist. LEXIS 21548, at *23 n.7 (E.D. Pa. 2005) (“a creditor
that is not itself a debt collector is not vicariously liable for
the actions of a debt collector in the creditor’s employ.”).
Notably, however, “statutory torts are to be interpreted in accordance with traditional tort principles of liability.” Marucci, 66 F. Supp. 3d at 564. “In Meyer v.
Holley, 537 U.S. 280 [] (2003), the Supreme Court discussed vicarious liability under the Fair Housing Act.” Id.
“The Court held [in Meyer] that ‘when Congress creates
a tort action, it legislates against a legal background of ordinary tort­related vicarious liability rules and consequently intends its legislation to incorporate those rules.’”
Id. (quoting Meyer, 537 U.S. at 285). “Surveying such
common law principles, the Court found that they ‘ordinarily make principals or employers vicariously liable for
acts of their agents or employees in the scope of their authority or employment.’” Id. (quoting Meyer, 537 U.S. at
285). “Such a principal/agent relationship requires
(1) that there be control, or ‘the right to direct or control’;
and (2) that the parties consent to one’s acting on behalf
of the other.” Id. (quoting Meyer, 537 U.S. at 285).
‘‘The Supreme Court’s general approach in Meyer and
the Third Circuit’s specific holding in Pollice point the
same way.” Marucci, 66 F. Supp. 3d at 564. Specifically,
“[a] debt collector is responsible for ‘the activities of those
it enlists to collect debts on its behalf.” Id. (quoting Pollice, 225 F.3d at 405). “The Pollice Court found this to be

70a
‘a fair result because an entity that is itself a “debt collector”—and hence subject to the FDCPA—should bear the
burden of monitoring the activities of those it enlists to
collect debts on its behalf.’” Id. at 563 (quoting Pollice,
225 F.3d at 405); see Palmer v. Dynamic Recovery Solutions, LLC, 2016 U.S. Dist. LEXIS 59229, at *18 (M.D.
Fla. May 4, 2016) (In rejecting a debt collector’s argument
that vicarious liability should not be imposed because the
debt collector it hired was an independent contractor
“which collects debts for [the debt collector principal]
without [its] input or direction,” the District Court found
that “there is no doubt that a principal exercises the requisite level of control when it is itself a debt collector. . . .
This approach makes sense, as the entire purpose of the
FDCPA would be defeated if debt collectors were permitted to insulate themselves from liability by farming out
their collection efforts to smaller debt collectors who face
only nominal monetary judgments due to the FDCPA’s
net worth caps[footnote omitted]. . . . By virtue of its
status as a debt collector, Cascade therefore exercises the
requisite control over Dynamic to impose vicarious liability for Dynamic’s violation of the statute.”); see also
Marucci, 66 F. Supp. 3d at 564 (Noting that a debt collector is responsible for ‘the activities of those it enlists to
collect debts on its behalf and, thus, declined “to impose
additional requirement that, to state a claim of vicarious
liability under the FDCPA, [the plaintiffs’] must allege
specific acts of control. . . .”).
Thus, under the present circumstances, Crown, a
“debt collector,” should bear the burden of monitoring the
collection activities of those it enlists to perform collection
activity on its behalf and be responsible for ‘‘the activities
of those it enlists to collect debts on its behalf.” Pollice,
225 F.3d at 405; see Janetos, 825 F.3d at 325 (“A debt collector should not be able to avoid liability for unlawful

71a
debt collection practices simply by contracting with another company to do what the law does not allow it to do
itself.”). As established by the summary judgment record, Turning Point was an entity that Crown, a “debt collector,” enlisted by way of the Service Agreement to collect on the Account. See (Doc. 86-3). Applying Pollice, the
undisputed evidence is sufficient to establish that Crown
could be subject to vicarious liability for the violations of
the FDCPA allegedly committed by Turning Point in this
matter. See Pollice, 225 F.3d 405; Marucci, 66 F. Supp.
3d at 564 (citing Meyer, 537 U.S. 280); see also Janetos,
825 F.3d at 325; Palmer, 2016 U.S. Dist. LEXIS 59229, at
*18; Cox v. Hilco Receivables, L.L.C., 726 F. Supp. 2d 659,
667-68 (N.D. Tex. Nov. 24, 2010). As a result, Crown’s argument that it is entitled to summary judgment because
it cannot be held vicariously liable for the collection activities of Turning Point relevant to this case, (Doc. 83, pp.
12- 14), is without merit and, thus, its motion for summary
judgment will be denied. However, this conclusion does
not end the inquiry, because, as stated, in order to successfully impose vicarious liability on Crown, a “debt collector,” Plaintiff must show that, under the present circumstances, Turning Point also was a “debt collector’’ under the FDCPA.
Plaintiff argues that Turning Point was a “debt collector” under the FDCPA “because its principal business
was collecting debts.” (Doc. 79, p. 14) (citing Doc. 80, p.
3). Plaintiff supports this contention by asserting that
“[a]t the top of the letter at issue, Turning Point identifies
itself as a ‘National Debt Collection Agency.’” (Id.). Additionally, Plaintiff points to the “Service Agreement between [Crown] and Turning Point” which “states that
Turning Point ‘seeks to provide certain collection services’
to [Crown], that [Crown] ‘seeks to procure certain collection services from’ Turning Point, and that Turning Point

72a
‘will undertake collection on each [a]ccount placed’ by
[Crown].” (Id.). Lastly, Plaintiff asserts that “as evidenced by the letter and voice messages at issue here,
Turning Point used instrumentalities of interstate commerce such as telephone or the mails in furtherance of the
principal purpose of its business, namely the collection of
debts.” (Doc. 79, p. 14). However, under the present circumstances, Plaintiff’s argument that the undisputed
facts establish, as a matter of law, that Turning Point
meets the definition of “debt collector” under the FDCPA
lacks merit.
As noted, a “debt collector” pursuant to the FDCPA
is:
any person who uses any instrumentality of interstate
commerce or the mails in any business the principal
purpose of which is the collection of any debts, or who
regularly collects or attempts to collect, directly or indirectly, debts owed or due or asserted to be owed or
due another.
15 U.S.C. § 1692a(6). Consequently, a party may be subject to the FDCPA if its “principal purpose. . . is the collection of any debts” or if they “regularly collect[] or attempt[] to collect, directly or indirectly, debts. . . .” Id.
Notably, “[w]hether a defendant is a ‘debt collector’ as defined by the FDCPA is a question of law appropriate for
resolution on summary judgment.” Prince, 346 F. Supp.
2d at 747 (citing Pollice, 225 F.3d at 403); see Duraney v.
Washington Mut. Bank F.A., 2008 U.S. Dist. LEXIS
72087, at *34 (W.D. Pa. Sept. 11, 2008) (citing Pollice, 225
F.3d at 403).
As for what constitutes an entity that “regularly collects or attempts to collect” debts due another, it should
be noted that the:

73a
FDCPA does not define the term ‘regularly’ or offer
factors to consider in determining whether a defendant’s debt collection practices fall within its provisions,
a considerable amount of law has developed that addresses the proper interpretation of ‘regularly’ under
the FDCPA.
Silva v. Mid-Atl. Mgmt. Corp., 277 F. Supp. 2d 460,464
(E.D. Pa. 2003) (citing Schroyer v. Frankel, 197 F.3d 1170
(6th Cir. 1999); Garrett v. Derbes, 110 F.3d 317 (5th Cir.
1997); Fox v. Citicorp Credit Servs., 15 F.3d 1507 (9th Cir.
1994); Scott v. Jones, 964 F.2d 314 (4th Cir. 1992); 173
A.L.R. Fed. 223 (2001)). However, the United States District Court for the District of New Jersey has noted that
“[c]ourts have debated what constitutes ‘regularity’ under
the FDCPA, and have set forth two different frameworks.” 3 Coles v. Zucker Goldberg & Ackerman, 2015
U.S. Dist. LEXIS 98628, at *17 (D.N.J. July 29, 2015).
First, “[t]he ‘aggregate’ framework examines ‘the amount
of debt collection performed in the aggregate,’ and ‘establishe[s] threshold percentages of how much debt collection activity qualifies as “regular” and how little does
not.’” Id. (quoting Oppong v. First Union Mortg. Corp.,
407 F. Supp. 2d 658,664 (E.D. Pa. 2005)).
While there are at-least two (2) approaches to determine “regularity’’ under the FDCPA, the Court need not determine which of the
two (2) approaches discussed above, or any other, applies here because, as discussed in more detail below, Plaintiff does not argue in
support of its motion for summary judgment that Turning Point was
a “debt collector” under the FDCPA because it regularly collected or
attempted to collect debts due another. (Doc. 79, p. 14). Rather,
Plaintiff argues that Turning Point was a debt collector because its
‘‘principal business was collecting debts.” (Id.). Therefore, the Court
will not address whether Turning Point was a “debt collector’’ using
“regularity’’ because it was not a ground upon which Plaintiff relied
in her motion for summary judgment. (Id).
3

74a
On the other hand, the ‘frequency’ approach focuses
on the regularity of the defendant’s debt collection, regardless of its relation to the defendant’s other business
activities.” Coles, 2015 U.S. Dist. LEXIS 98628, at *17-18
(citing Oppong, 407 F. Supp. 2d at 662). “Indeed, while
the Third Circuit has not explicitly adopted a particular
approach, it has cited approvingly cases from the Ninth
and Second Circuits, which have adopted the ‘frequency’
approach.” Id. (citing Oppong, 215 F. App’x at 119 (citing
Romine v. Diversified Collection Servs., Inc., 155 F.3d
1142, 1146 (9th Cir. 1998); Goldstein v. Hutton, Ingram,
Yuzek, Gainen, Carroll, & Bertolotti, 374 F.3d 56, 62-63
(2d Cir. 2008))).” A determination under the frequency
approach is a ‘fact intensive inquiry.’” Id. (quoting
Greaves v. Ann Davis Assocs., Inc., 2015 U.S. Dist.
LEXIS 18528, at *9 (D.N.J. Feb. 17, 2015)). Quoting the
Second Circuit, the United States District Court for the
District of New Jersey noted that:
There are a number of factors that a plaintiff may allege to sufficiently plead the regularity requirement:
“(1) the absolute number of debt collection communications issued, and/or collection-related litigation matters pursued, over the relevant period(s), (2) the frequency of such communications and/or litigation activity, including whether any patterns of such activity are
discernable, (3) whether the entity has personnel specifically assigned to work on debt collection activity,
(4) whether the entity has systems or contractors in
place to facilitate such activity, and (5) whether the activity is undertaken in connection with ongoing client

75a
relationships with entities that have retained the lawyer or firm to assist in the collection of outstanding
consumer debt obligations.”
Coles. 2015 U.S. Dist. LEXIS 98628, at *18 (quoting Goldstein, 374 F.3d at 62; citing Greaves, 2015 U.S. Dist.
LEXIS 18528, at *9-10).
In Greaves v. Ann Davis Assocs., Inc., the United
States District Court for the District of New Jersey noted
that “[i]n Crossley v. Lieberman, 868 F.2d 566, 569 (3d
Cir. 1989), the Third Circuit quoted from a law review article which stated that ‘any attorney who engages in collection activities more than a handful of times per year
must comply with the FDCPA.’” Greaves, 2015 U.S. Dist.
LEXIS 18528, at *9 (quoting Crossley, 868 F.2d at 569).
“Thus,” the District Court concluded, ‘‘the term ‘regularly’ excludes one instance, and likely excludes more than
one instance depending on the context.” Id.
Alternatively, as noted, an entity may be found to be a
“debt collector” under the FDCPA if its “principal purpose” is “the collection of any debts. . . .” 15 U.S.C.
§ 1692a(6). In Oppong v. First Union Mortgage Corporation, the United States Court of Appeals for the Third
Circuit addressed, inter alia, whether the District Court
correctly determined that the defendant was a debt collector under the FDCPA. Oppong, 215 F. App’x at 118.
Ultimately, the Third Circuit affirmed the District
Court’s finding that the defendant was a “debt collector”
under the FDCPA because the defendant “regularly” collected or attempted to collect debts due another. Oppong,
215 F. App’x at 119. However, the Third Circuit also
noted that the defendant was “not an entity whose ‘principal purpose’” was to “collect others’ debts.” Id. “Rather,” the Third Circuit continued, “the declaration . . .
submitted to the District Court along with the renewed
summary judgment motion shows that, in a three-month

76a
period, only 89, out of 141,597, of the loans that [the defendant] acquired were in default.” Id. at 118-19. As a
result, the Third Circuit found that defendant’s ‘‘principal
purpose” was not the collection of debts. Id. at 119.
In this case, Plaintiff argues that Turning Point meets
the definition of “debt collector” under the FDCPA “because its principal business was collecting debts.” (Doc.
79, p. 14). In support of this contention, Plaintiff directs
the Court’s attention to undisputed facts, namely, the contents of the letter Turning Point sent to Plaintiff on February 6, 2013 and the Service Agreement. See (Id.); (Doc.
80, p. 5); (Doc. 80-4, p. 2); (Doc. 80-8); (Doc. 91, pp. 8-9).
The impact of this evidence in establishing that, as a matter of law, Turning Point was a “debt collector” will be addressed in turn.
As to the February 6, 2013 letter, Plaintiff notes that
Turning Point identified itself as a “National Debt Collection Agency” and “debt collector.” See (Doc. 79, p. 14);
(Doc. 80, p. 5); (Doc. 80-4, p. 2); (Doc. 80-8); (Doc. 91, pp.
8-9). This self-identification, according to Plaintiff, establishes, at least in part, that the principal purpose of Turning Point’s business was the collection of “debt.” (Id.).
However, Turning Point’s self-identification as a “National Debt Collection Agency” and “debt collector,” by itself, does not necessarily establish, as a matter of law, that
it was a “debt collector” under the FDCPA.
Rather, a communication that includes a statement
that ‘“this is a communication from a debt collector’. . . .
is not necessarily an admission that [the alleged debt collector] is a ‘debt collector’ under the FDCPA.” Prince,
346 F. Supp. 2d at 751. “The general definition of ‘debt
collector’ under section 1692a(6) refers to the person or
entity and the exception in subsection (F) refers to the
debt at issue, so an entity may generally be a ‘debt collector’ without being a ‘debt collector’ in a specific situation.”

77a
Id. Stated differently, “merely identifying oneself as a
debt collector does not make one a debt collector under
the FDCPA.” Alamo, 2011 U.S. Dist. LEXIS 5392, at *16
(citing Prince, 346 F. Supp. 2d at 751; Pulawa v. Fed. Recovery Servs., Inc., 2006 U.S. Dist. LEXIS 31869 (D. Haw.
Apr. 28, 2006); Martin v. Select Portfolio Servicing Corp.,
2008 U.S. Dist. LEXIS 16088 (S.D. Ohio Mar. 3, 2008));
See Hooks v. Forman Holt Eliades & Ravin LLC, 2015
U.S. Dist. LEXIS 122418, at *34-35 (S.D.N.Y. Sept. 14,
2015) (“Although Alibrandi[ v. Fin. Outsourcing Svs.,
Inc., 333 F.3d 82 (2d Cir. 2003),] did not hold that ‘the
mere use of a “debt collector” disclaimer automatically
transforms a person into a debt collector for purposes of
the FDCPA,’ it does direct the court to consider the disclaimer in the totality of facts of each particular case.”);
Gregory v. Home Retention Servs., 2014 U.S. Dist.
LEXIS 164769, at *9 (D.N.J. Nov. 24, 2014) (finding that
‘‘the cases Defendant cites from within this District appear to emphasize that an institution’s having self-identified as a debt collector is not dispositive of whether it is
one under the” FDCPA); Ghaffari v. Wells Fargo Bank,
N.A., 2014 U.S. Dist. LEXIS 162007, at *16-17 (M.D. Pa.
Nov. 19, 2014) (Mariani, J.); Clarke v. Dunn, 2014 U.S.
Dist. LEXIS 123013, at *12 (D. Md. Sept. 4, 2014) (“an entity that refers to itself as a ‘debt collector’ does not become one for purposes of the FDCPA if it does not otherwise fall within that law’s definition.”) (citing Prickett v.
BAC Home Loans, 946 F. Supp. 2d 1236, 1249 (N.D. Ala.
2013); Laccinole v. Twin Oaks Software Dev., Inc., 2014
U.S. Dist. LEXIS 73879, at *33 (D.R.I. May 30, 2014)); JP
Morgan Chase Bank, N.A. v. Horvath, 862 F. Supp. 2d
744, 755 (S.D. Ohio 2012) (‘‘the fact that Chase self-identified as a ‘debt collector’ does not make it one under the
FDCPA.”) (citing Martin, 2008 U.S. Dist. LEXIS 16088,
at *12); but Glover v. FDIC, 698 F.3d 139, 152 n.8 (3d Cir.

78a
2012) (In affirming the District Court’s dismissal of an
FDCPA claim, the Third Circuit had “no hesitation in concluding that the [defendant] meet[s] the FDCPA definition of a ‘debt collector’” because of the defendant’s selfidentification as a “debt collector” in a foreclosure complaint, its confirmation ‘‘that the Foreclosure Complaint
was ‘an attempt to collect a debt,’ and [the plaintiff’s]
pleadings allege that the [defendant] engaged in such litigation as a common debt collection practice.”); Plouffe v.
Bayview Loan Servicing, LLC, 2016 U.S. Dist. LEXIS
150973, at *15-16 (E.D. Pa. Oct. 31, 2016); La Mar Gunn
v. Specialized Loan Servicing LLC, 2016 U.S. Dist.
LEXIS 35198, at *11 (D. Del. Mar. 18, 2016). Therefore,
Turning Point’s self-identification as a “National Debt
Collection Agency” and “debt collector,” see (Doc. 80-4, p.
1), by itself, does not establish, as a matter of law, that the
principal purpose of Turning Point’s business was the collection of “debt.”
Plaintiff also claims that the Service Agreement between Crown and Turning Point supports the conclusion
that Turning Point’s principle purpose was the collection
of “debts.” (Doc. 79, p. 14). Specifically, Plaintiff states
that “the Service Agreement between Defendant and
Turning Point states that Turning Point ‘seeks to provide
certain collection services from’ Turning Point, and that
Turning Point ‘will undertake collection on each Account
placed’ by Defendant.” (Id.).
However, even when taken together with Turning
Point’s self-identification as a “debt collector” in the February 6, 2013 letter, the Service Agreement fails to establish, as a matter of law, that the principal purpose of Turning Point’s business was the collection of “debt.” In particular, while it is undisputed that the Service Agreement
outlines the agreed upon collection services offered by

79a
Turning Point to Crown, see (Doc. 86-3), the FDCPA requires that “the defendant be a debt collector in fact.”
Heyman v. CitiMortgage, Inc., 2015 U.S. Dist. LEXIS
138346, at *14 (D.N.J. Oct. 9, 2015). With that in mind,
the Service Agreement does not provide the Court with
an indication as to what role debt collection plays in Turning Point’s business as a whole. See Oppong, 215 F. App’x
at 118-19. Thus, the Service Agreement is insufficient evidence to allow the Court to say, as a matter of law, that
the “principal purpose” of Turning Point’s business was
the collection of “debt.”
Notably, the only evidence in the summary judgment
record of Turning Point’s debt collection activity is 1) the
February 6, 2013 letter and 2) the two (2) voicemail messages received by Plaintiff. See (Doc. 80, p. 3); (Doc. 94,
pp. 9-10). 4 Such evidence, however, even when taken with
the remaining summary judgment record, is insufficient
to support a finding that, as a matter of law, Turning
The Court notes that, in support of her motion for class certification, Plaintiff has asserted that “Crown referred 232 accounts (in addition to Plaintiff’s) to Turning Point for collection.” (Doc. 64, p. 2).
Plaintiff continues in that filing by stating that “[i]t is likely that
Turning Point sent initial collection letters in the form of Exhibit A
to most of all of the persons associated with those 232 accounts.”
(Doc. 64, pp. 2-3) (second emphasis in original). Importantly, however, Plaintiff has not provided evidence concerning the number of
accounts that Crown referred to Turning Point pursuant to the Service Agreement. See (Docs. 80, 84-87, 91, 94). Notably, Crown’s Federal Rule of Civil Procedure 30(b) representative, Jessica Foster, testified during her deposition that she did not know how many of
Crown’s accounts were referred to Turning Point. See (Doc. 86, pp.
63, 65-66). Further, Plaintiff has yet to produce any evidence as to
how many accounts, outside of Plaintiff’s Account, if any, were the
subject of Turning Point’s collection activity. See (Docs. 80, 84-87, 91,
94). Thus, at this stage of the proceedings, there is an unresolved
question as to whether Turning Point performed debt collection activity outside of the actions alleged in this case.
4

80a
Point’s “principal purpose” was the “collection of any
debts.” See WMC Mortg. LLC v. Baker. 2012 U.S. Dist.
LEXIS 25765, at *71 (E.D. Pa. Feb. 28, 2012) (After a
bench trial the court found “there is no evidence in the
record regarding any collection activities by WMC other
than in this case. Absent any such evidence, this Court
cannot find WMC regularly collects debts asserted to be
due another, must less that such debt collection is WMC’s
principal purpose.”) (citing Oppong, 215 F. App’x at 11920 (holding a mortgage lender “regularly” collected debts
owed to another as a matter of law based on evidence the
lender acquired approximately 89 home mortgages that
were in default in a typical three­ month period)); see also
Siwulec v. J.M. Adjustment Servs. LLC, 465 F. App’x 200,
203 n.2 (3d Cir. 2012) (quoting S. Rep. No. 95-382, 95th
Cong. 1st Sess. 2 (1977), reprinted in 1977 U.S.C.C.A.N.
1695, 1697-98); Heredia v. Green, 667 F.2d 392,399 (3d
Cir. 1981) (quoting S. Rep. No. 95-382, 95th Cong., 1st
Sess. 3-4, reprinted in (1977) U.S.C.C.A.N. 1695, 1697-98)
(‘“The requirement that debt collection be done “regularly” would exclude a person who collects a debt for another in an isolated instance, but would include those who
collect for others in the regular course of business.’”); Absolute Power Sys. v. Cummins, Inc., 2016 U.S. Dist.
LEXIS 162458, at *27-28 (D.N.J. Nov. 23, 2016) (the
plaintiffs did not “sufficient allege that [the defendants]
are debt collectors, as they have failed to plead any facts
that would even suggest that [the defendants] collect
debts as a matter of course or as a substantial part of its
practice, outside of this one particular matter arising from
non-payment of a settlement figure. More specifically,
[the plaintiffs] do not include any allegations regarding
the volume of [the defendant’s] collection activities, nor do
[the plaintiffs] allege that [the defendants] have any relationship with collection agencies or have any systems in

81a
place to facilitate debt collection.”); Coles, 2015 U.S. Dist.
LEXIS 98628, at *19-20 (“one instance of debt collection
. . . is insufficient to plead that [a defendant] regularly
collects debts.”) (citing Greaves, 2015 U.S. Dist. LEXIS
18528, at *9); Greaves, 2015 U.S. Dist. LEXIS 18528, at *9
(“Thus, the term ‘regularly’ excludes one instance, and
likely excludes slightly more than one instance depending
on the context.”).
Therefore, even viewing the summary judgment record as a whole, Plaintiff has not established, as a matter
of law, that the “principal purpose” of Turning Point’s
business was the “collection of any debts,” and, thus, was
a “debt collector” under the FDCPA. Consequently,
Plaintiff’s motion for summary judgment will be denied on
that ground.
As noted above, it appears that Plaintiff is in possession of evidence, which, if properly presented in a renewed
motion for summary judgment, might result in a different
determination concerning Turning Point’s status as a
“debt collector” under the FDCPA. See (Doc. 64, pp. 2-3).
Similarly, Crown may be able to successfully argue in a
renewed motion for summary judgment that Plaintiff’s
claims fail as a matter of law because she cannot establish
that Turning Point was a “debt collector” under the
FDCPA. Therefore, in the interests of judicial economy,
the Court will provide the parties with the opportunity to
file renewed motions for summary judgment. As for the
remaining issues presented in Plaintiff’s current summary judgment motion, see (Doc. 79, pp. 15-24), they will
be addressed, if necessary, when the Court disposes of
any renewed motions for summary judgment filed in this
matter. See Fed. R. Civ. P. 56(g).

82a
IV. CONCLUSION

Based on the foregoing, both motions for summary
judgment will be denied. (Docs. 77, 78). However, in the
interest of judicial economy, the Court will allow the parties to file renewed motions for summary judgment within
twenty-one (21) days of the date of this Memorandum and
accompanying Order.
An appropriate Order follows.
/s/ William J. Nealon
United States District Judge

